<html>
<title> - THIS IS NOT A TEST: WILL THE NATION'S EMERGENCY ALERT SYSTEM DELIVER THE PRESIDENT'S MESSAGE TO THE PUBLIC?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                          THIS IS NOT A TEST: 
                      WILL THE NATION'S EMERGENCY 
                          ALERT SYSTEM DELIVER 
                        THE PRESIDENT'S MESSAGE 
                             TO THE PUBLIC? 

=======================================================================

                                (111-65)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           September 30, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-609 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 
























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY,               ANH ``JOSEPH'' CAO, Louisiana
Pennsylvania, Vice Chair             PETE OLSON, Texas
DONNA F. EDWARDS, Maryland
THOMAS S. P. PERRIELLO, Virginia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)



















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Axtell, Tom, General Manager, Vegas PBS, Las Vegas, Nevada.......    29
Coletta, Jim, Collier County Commissioner, District 5, Naples, 
  Florida........................................................    29
Goldstein, Mark L., Director, Physical Infrastructure Issues, 
  Government Accountability Office...............................     6
Hamlin, Lise, Director of Public Policy and State Development, 
  Hearing Loss Association of America, Bethesda, Maryland........    29
Muth, Richard, Executive Director, Maryland Emergency Management 
  Agency, State Emergency Operations Center, Reisterstown, 
  Maryland.......................................................    29
Penn, Damon C., Assistant Administrator, National Continuity 
  Programs, Federal Emergency Management Agency..................     6
Ramon, Juan, Representative, National Council of La Raza, 
  Washington, D.C................................................    29

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    51
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    52

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Axtell, Tom......................................................    55
Coletta, Jim.....................................................    64
Goldstein, Mark L................................................    68
Hamlin, Lise.....................................................    85
Muth, Richard....................................................    97
Penn, Damon C....................................................   105
Ramon, Juan......................................................   135

                       SUBMISSIONS FOR THE RECORD

Penn, Damon C., Assistant Administrator, National Continuity 
  Programs, Federal Emergency Management Agency, responses to 
  questions from the Subcommittee................................   119

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

HEARING ON THIS IS NOT A TEST: WILL THE NATION'S EMERGENCY ALERT SYSTEM 
             DELIVER THE PRESIDENT'S MESSAGE TO THE PUBLIC?

                     Wednesday, September 30, 2009

                  House of Representatives,
      Subcommittee on Economic Development, Public 
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:08 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. The hearing will come to order. I want to 
welcome all of today's witnesses.
    Currently, our Nation is fascinated with television shows, 
you know, CSI and 24, where the characters work with a myriad 
of state-of-the-art weapons, scientific tools, and 
communication devices. Most Americans use the Internet and 
mobile phones, personal digital assistance. We can Skype video 
conference our friends 5,000 miles away who sound as if they 
are just down the street. We can Google and find out millions 
of pieces of information almost instantaneously.
    Most of the country, to the credit of the American people, 
has embraced the use of smart technology. Consequently, many 
Americans believe that they have the capability to receive a 
Presidential emergency message via their cell phone, PDA, or 
fax. They are wrong. In the event of a national emergency, 
heaven forbid, a 9/11 or an Oklahoma City bombing-type event, 
citizens must rely primarily on an emergency alert system built 
in the 1960s, with little progress to show since.
    Today, thousands of citizens across the country rely on the 
familiar system that interrupts television viewing with a 
beeping sound, the multicolored stripes across the screen--you 
know, the same stuff that was there when we were kids--and the 
words, the same words, This is only a test of the Emergency 
Alert System, or EAS.
    This system was built during the Cold War to provide 
citizens with an emergency broadcast on their television or 
radios advising that they have 5 minutes to seek appropriate 
shelter because a tornado is approaching, or to evacuate the 
area because a hurricane will arrive in a few hours, or other 
disasters. If there were a need to reach the Nation to convey 
an emergency message, it is, at best, questionable whether a 
sizeable portion of the country would receive it. The 
Government Accountability Office reports that there are many 
unaddressed weaknesses that limit the effectiveness of the 
Nation's primary public alert and warning system, as far as it 
goes, considering technology today.
    FEMA is responsible for administering the national EAS, 
with assistance from the Federal Communications Commission, to 
ensure compliance with regulations. Broadcast radio and 
television stations and satellite radio operators are required 
to participate in national-level EAS alerts. And State and 
local governments may use the EAS on an as-available basis, but 
participation is voluntary.
    Our Subcommittee's jurisdiction is primarily implicated 
because of the large number of natural disasters this country 
experiences every year. Indeed, most of the disasters far and 
away are disasters under our Subcommittee's jurisdiction. 
Approximately 90 percent of all messages disseminated by EAS 
are generated by the National Oceanic and Atmospheric 
Administration weather alerts.
    In June 2006, President Bush issued Executive Order 13407 
directing the Department of Homeland Security to modernize and 
integrate the Nation's public warning system to create a robust 
Federal warning system and to report on progress on at least an 
annual basis. The FEMA Integrated Public Alert and Warning 
System (IPAWS) program was initiated in 2004 and became the 
programmatic mechanism to carry out the executive order. FEMA 
defines IPAWS as a ``system of systems'' which is intended to 
eventually integrate existing and new alert systems, including 
EAS.
    Unfortunately, we are now nearing the end of 2009, and 
national-level alert capabilities have remained virtually 
unchanged since the 1960s, and new technologies are not even 
close to being adopted. Consequently, Ranking Member Diaz-
Balart and I asked GAO to examine, one, the current status of 
EAS; two, the progress made and FEMA's efforts to modernize and 
integrate alert and warning systems; and three, the issues and 
challenges involved in implementing and integrating a public 
alert and warning system.
    Today, FEMA will testify on the report we asked FEMA to 
prepare, which has been titled "Emergency Preparedness: 
Improved Planning and Coordination Necessary for Development of 
Integrated Public Alert and Warning System."
    At the June 2008 hearing, we heard from various EAS IPAWS 
stakeholders, including Federal partners, State and local 
governments, emergency management associations, the broadcast 
industry, and others, that FEMA had not met with them 
periodically to get their advice or to inform them of their 
program progress or direction. At the hearing, this 
Subcommittee was clear that immediate leadership by FEMA was 
expected, and that simply attending events and conferences that 
other groups hold is not an effective way for FEMA to interface 
with stakeholders. The then-Assistant Administrator for 
Continuity Programs, General Martha Rainville, said that "FEMA 
will be setting up a formal group, an advisory group, if you 
will, that will work to make sure to inform the IPAWS program."
    There has been some very recent progress, but stakeholders 
still express frustration with the lack of communication and 
coordination overall. Therefore, it has become necessary for 
Ranking Member Diaz-Balart and I to introduce H.R. 2591, the 
Integrated Public Alerts and Warning System Modernization Act 
of 2009, to specifically direct FEMA to establish an IPAWS 
modernization advisory committee to ensure stakeholder input.
    Currently, I understand that most of the members of FEMA 
staff who will be responsible for the current and future 
implementation of IPAWS are fairly new. We hope that with the 
new administration, the revolving door of staff, shifting 
program goals, lack of specific plans and timetables, no 
periodic reporting on progress, and lack of performance 
measures will be a thing of the past.
    The danger from terrorism and natural disasters only 
increases with an antiquated alert system, and FEMA should 
expect frequent oversight and reports on progress due to this 
Subcommittee. Without leadership, and in the absence of Federal 
standards and protocols, many States and localities have felt 
they had to begin building their own systems. A useless 
patchwork of alert systems that are unable to communicate with 
one another is the likely result of the State-by-State approach 
underway. We have seen that result before when police and 
firefighters on 9/11 could not communicate. We cannot repeat 
the same mistakes again.
    Several of our witnesses have stories to share that will 
remind us of what is at stake for citizens, and why there must 
be no more delay in building a modern integrated alert system 
that takes into account the end-users, our fellow citizens.
    Again, I welcome today's witnesses and look forward to your 
testimony. And I am pleased to ask for remarks from our Ranking 
Member, my good friend, Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. Let me first 
take this opportunity to thank you again. You have been 
exceedingly open, accessible, and willing to look at any issue 
that is important to all of the Members of your Subcommittee, 
and I cannot thank you enough. And this is another hearing 
which I think is very, very important.
    I am also pleased to welcome all of the witnesses, 
including a good friend of mine, Commissioner Jim Coletta, who 
is a county commissioner from Collier County. Madam Chairwoman, 
he had a lengthy county meeting--I believe it was, I don't 
know, close to 8, 9, 10 hours--a late night, and he is here 
this morning. I want to thank him for flying up here and 
testifying later on.
    Also, he is accompanied by Dan Sommers, Madam Chairwoman. 
You have been in Florida and south Florida. And particularly 
you have seen the quality of the emergency management personnel 
that we have there. Unfortunately, we have more experience than 
we would like to have. Dan is one of those quality individuals 
that is doing a spectacular job in keeping the people of 
southwest Florida safe.
    I worked with the Chairwoman on this hearing because, as 
everybody knows, I represent one of the most prone-for-
hurricanes part of the country. And the ability to warn the 
public is, frankly, an issue of literally life and death. This 
is not theory, this is life and death. And I, like the 
Chairwoman, who just spoke to us right now, we are both totally 
determined and committed to modernize this system. And again, I 
thank her for her leadership in this.
    In the age of iPhones and GPS, one would think that--and I 
think most people believe--that the President of the United 
States could, if there was an emergency, target a specific area 
and make sure that the information is out there. Well, the 
reality is that, if you would think that would be the case, you 
would be dead wrong because that capability does not exist in 
our country. The fact is, is that if a big disaster hit today, 
the President could only send out a message basically to the 
entire country, and it is doubtful if that message would 
actually get to those who really need to hear it, to those who 
are in the way of whatever disaster it may be. There is a 
likely chance that message would never be received to those 
that really need to hear it.
    If you are hearing or visually impaired or handicapped or 
have limited English proficiency, then you are pretty much out 
of luck. And we will hear from the witnesses today, I am sure, 
a little more about that.
    But why, though? Why, one would ask, is that possible? 
Because the Federal Government, frankly, relies, as the 
Chairwoman said, on these phone lines and on the TV and radio 
signals that we have seen from time to time--as the Chairwoman 
said, from the sixties we have been seeing that same message, 
antiquated computers and phone lines, and FEMA has frankly made 
very little progress in upgrading the system to the technology 
that is available, 21st century technology. We are really 
dealing with sixties technology still.
    In addition to gaps in coverage, the existing emergency 
alert system again only reaches the public through those 
medias, through television and radio. Now, let me tell you, in 
2007, this system was, frankly, of very little help in Florida 
when tornados ripped through several towns at 3:00 in the 
morning and killed 21 people. That is why I said a little while 
ago, this is not theory. In the case of emergencies and in the 
case of the State that I represent and others, obviously, this 
is a life or death situation. When those 21 people were killed 
in their beds at 3:00 in the morning, it is unlikely that they 
would have been watching their television and listening to 
their radio at that time. But it is likely that they had cell 
phones, and it is likely that they had land lines, and it is 
likely that they had other ways where they would have maybe 
been able to receive the information.
    Now, if that was not bad enough, GAO warns that it may get 
a lot worse if States, as the Chairwoman just mentioned, go it 
alone and start developing their own patchwork of systems 
because the Federal Government is MIA, is nowhere to be found. 
And then we risk the real possibility of having first 
responders not being able to communicate with each other, the 
Federal Government not being able to communicate with State 
governments and local governments, et cetera.
    So we are in danger of repeating the same mistakes that 
were made with the first responders' radios if we don't get 
this program on track and get it on track now. Time is of the 
essence.
    That is why, as the Chairwoman said, we introduced--I 
introduced with the honorable Chairperson of this Subcommittee 
and other Members of the Subcommittee the Integrated Public 
Alert and Warning System Modernization Act of 2009. This bill 
would establish a framework for the development of IPAWS. We 
wish we didn't have to do this. As was stated a little while 
ago, the President, in 2006, actually issued an executive order 
and, unfortunately, nothing happened. So we wish we didn't need 
legislation, but clearly it has been shown to us that we do 
need legislation.
    It would require that IPAWS include, among the things that 
it would include, multiple communication technologies, a 
capability to send both a Presidential message and States and 
local alerts, a capability to warn individuals with limited 
English proficiency and individuals with disabilities, and the 
ability to geotarget alerts to affected communities.
    The bill would also establish an advisory committee 
composed of key stakeholders, including State and local 
emergency management officials, NOAA, the private sector to 
ensure that IPAWS is not developed in a bubble or in a vacuum, 
but rather that it incorporates the experience and the 
expertise of others and the newest technology.
    At the end of the day we have, frankly, two possible 
futures when it comes to emergency alerts. One is a future in 
which the Federal Government continues to operate its system 
based on the 1960s, hoping that those who happen to be watching 
TV or listening to the radios receive the warning and where 
States, frankly, tired of waiting--and local governments, it is 
not only States, local governments are also moving forward with 
their efforts because, again, the Federal Government is nowhere 
to be found--so where States and local governments just 
continue to do their own thing and develop their own possibly 
incompatible systems; or, which is the preferable option, we 
can move forward on a digital system of systems, as it has been 
called, that allows officials to target lifesaving information 
over multiple devices and through multiple technologies to 
people in danger. Those are the options that we are facing.
    So, which future we choose, frankly, will be critical in 
saving lives, or not, and ensuring that our communities are 
properly prepared for major disasters that we know will hit our 
different communities.
    Once again, I want to thank Chairwoman Norton again for 
working with me on this important issue. She has been to 
southern Florida; she has been everywhere. She will not accept 
status quo. And I need to thank you for your leadership there 
once again.
    I also need to thank Chairman Oberstar for including my 
legislation as part of his larger Stafford Act reform bill. 
That bill is a huge priority for him. The fact that he has 
allowed this bill to go on there is something obviously that we 
are all very grateful for. So, again, I thank you. I thank 
those of you who are going to be testifying in front of us. And 
with that, I would like to yield back the remaining part of my 
time.
    Ms. Norton. Mr. Cao, the gentleman from Louisiana, do you 
have any opening remarks?
    Mr. Cao. Thank you, Madam Chairman.
    On behalf of my constituents in Orleans and Jefferson 
Parishes, I want to extend my thanks to the Chairwoman and the 
Ranking Member for holding this important hearing today. I 
would like to also thank them for their sustained attention 
with hearings like those today and yesterday to discuss post-
hurricane recovery.
    Getting the integrated public alert and warning systems up 
and running is critical to ensuring the safety of our citizens. 
This next-generation infrastructure will move away from the 
traditional audio-only radio and television emergency alert 
system and provide us state-of-the-art coverage.
    IPAWS will take advantage of all available warning 
networks, to include cell phones, land lines, pagers, faxes, 
personal digital systems, desktop computers, et cetera, and 
will enable us to communicate with one consistent message over 
more media to more people before, during and after a disaster.
    For a district like mine, which is vulnerable to hurricanes 
and other natural disasters, the comprehensive advance warning 
that IPAWS offers will be invaluable. That is why I am very 
disappointed to hear of the delays in implementation of this 
program that was first envisioned over 8 years ago. I am very 
eager to hear the GAO's explanation as to the status of this 
program and FEMA's explanation for the delays. Each day, month 
and year this program is delayed, we run the risk of losing 
lives.
    Over 2,000 Americans died during Hurricane Katrina. And in 
the written testimony for today's hearing, I saw one report of 
a man not knowing of the impending flood until the waters were 
rising around his house. Just from this example we can see the 
importance of communication. And for this reason, I have taken 
an active role in increasing the government's capacity for 
getting emergency information out to our citizens. I have 
authored legislation that directs GAO to conduct a study on our 
current ability to reach non-English speakers with emergency 
information and what additional government resources are 
required to adequately communicate with such communities. I 
have discussed this and other revisions to the Stafford Act 
with Chairman Oberstar, and he is supportive.
    I have authored legislation that would extend the 
Interoperable Emergency Communications Grant Program through 
fiscal year 2012 to give States additional time to apply for 
these grants. I am a cosponsor of the Chairwoman and Ranking 
Member's bill to ensure the implementation of the IPAWS 
program. I organized Members from the Gulf Coast in sending a 
letter to the Department of Defense to look at pilot programs 
for implementation of IPAWS while FEMA is working out their 
implementation of IPAWS.
    This is the 21st century. With the technology we have 
available to us today, there is no excuse for any more delays 
in getting IPAWS up and running. I know that the Chairwoman and 
Ranking Member and I, we want to hear firm commitments to 
deadlines from FEMA for which you can be assured we will hold 
you accountable. There should be no more delays.
    Thank you very much, Madam Chairman.
    Ms. Norton. We will go to our first panel. And we will hear 
first from Mark Goldstein, Director of Physical Infrastructure 
Issues, Government Accountability Office. Mr. Goldstein.

      TESTIMONY OF MARK L. GOLDSTEIN, DIRECTOR, PHYSICAL 
 INFRASTRUCTURE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE; AND 
  DAMON C. PENN, ASSISTANT ADMINISTRATOR, NATIONAL CONTINUITY 
         PROGRAMS, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Goldstein. Thank you, Madam Chair and Members of the 
Subcommittee. Thank you for the opportunity to discuss our 
report being released today on the status of the Nation's 
emergency public alert and warning systems. This system, the 
Emergency Alert System, EAS, provides the President and other 
authorized officials with the limited capacity to transmit 
emergency messages to the public.
    In our previous work, we have found that EAS relies upon 
antiquated methods that date back to 1963, exposing the system 
to weaknesses, including questionable reliability and 
versatility.
    In 2006, the Department of Homeland Security, by executive 
order, was given the responsibility for modernizing public 
alert and warning systems to ensure their capability of 
distributing alerts through varied telecommunications modes and 
to tailor alerts to specific geographic areas.
    FEMA, the entity within DHS responsible for the program, is 
working on the Integrated Public Alert and Warning System, 
IPAWS, which is intended to eventually integrate EAS into a 
larger warning network. When completed, EAS is expected to be 
superseded by the IPAWS "system of systems" to form the 
country's comprehensive public alert system.
    As FEMA develops IPAWS, State and local governments are 
implementing their own warning systems, which may be difficult 
to integrate with the broader IPAWS system. My testimony, based 
on our report today, focuses on the current status of EAS, the 
progress made on FEMA's efforts to modernize and integrate 
alert and warning systems, and coordination issues involved in 
implementing an Integrated Public Alert and Warning System.
    GAO's findings from today's report are as follows: First, 
as the primary national-level public warning system, EAS is an 
important alert tool, but it exhibits longstanding weaknesses 
that limit its effectiveness. In particular, the reliability of 
the national-level relay system, which would be critical if the 
President were to issue a national-level alert, remains 
questionable due to a lack of redundancy, gaps in coverage, a 
lack of testing and training, and limitations in how alerts are 
disseminated to the public.
    Further, EAS provides little capability to alert specific 
geographic regions. FEMA has projects underway to address some 
of these weaknesses; however, to date little progress has been 
made, and EAS remains largely unchanged since GAO's previous 
review completed in March 2007. As a result, EAS does not 
fulfill the need for a reliable comprehensive alert system.
    Second, initiated in 2004, FEMA's IPAWS program has made 
little progress. IPAWS is intended to integrate new and 
existing alert capabilities, including EAS, into a system of 
systems. However, national-level alert capabilities have 
remained unchanged, and new technologies have not been adopted.
    IPAWS efforts have been affected by shifting program goals, 
a lack of continuity in planning, staff turnover, and poorly 
organized program information from which to make management 
decisions. The vision of IPAWS has changed twice over the 
course of the program, and strategic goals and milestones are 
not clearly defined as IPAWS has operated without an 
implementation plan from early 2007 until this summer.
    Subsequently, as State and local governments are forging 
ahead with their own alert systems, IPAWS program 
implementation has stalled, and many of the functional goals of 
IPAWS, such as geotargeting of messages and dissemination 
through redundant pathways to multiple devices, have yet to 
reach operational capacity.
    FEMA conducted a series of pilot projects without 
systemically assessing outcomes or lessons learned, and without 
substantially advancing alert and warning systems. FEMA does 
not periodically report on IPAWS' progress; therefore, program 
transparency and accountability are lacking.
    Third, FEMA faces coordination issues in developing and 
implementing IPAWS. Effective public warning depends on the 
expertise, efforts and cooperation of diverse stakeholders, 
such as State and local emergency managers and the 
telecommunications industry. However, many stakeholders GAO 
contacted know little about IPAWS and expressed a need for 
better coordination with FEMA.
    A GAO survey indicated that the majority of State emergency 
management directors had little communication with FEMA 
regarding IPAWS. FEMA has taken steps to improve its 
coordination efforts by planning to participate in emergency 
management conferences and building improved relationships 
between the IPAWS program and FEMA regional offices. However, 
despite stating its plan to create a stakeholder Subcommittee 
and state advisory committee, FEMA has established neither 
group and has no current plans to do so.
    In the report released today, GAO recommends that FEMA 
implement processes for systems development and deployment, 
report periodically on progress toward achieving an Integrated 
Public Alert and Warning System, and implementing a plan to 
verify the dependability of IPAWS and to train IPAWS 
participants.
    In response to our report, DHS agreed with all the 
recommendations and provided explanations of actions aimed at 
addressing them. However, FEMA's planned actions to address the 
recommendations may be not sufficient.
    This concludes my prepared remarks. I would be pleased to 
respond to any questions that you have. Thank you.
    Ms. Norton. Thank you, Mr. Goldstein.
    Damon Penn, Assistant Administrator, National Continuity 
Programs, FEMA.
    Mr. Penn. Good afternoon, Madam Chairwoman, Ranking Member 
Diaz-Balart, and Members of the Subcommittee.
    First, I would like to say that our hearts and prayers go 
out to the families of those affected by yesterday's tsunami in 
American Samoa and the adjoining regions. FEMA activated its 
National Response Coordination Center yesterday, and 
Administrator Fugate is moving lifesaving equipment into the 
area. I got notification just as I came into the room that the 
first assessment team has arrived on site. And I know you have 
gotten updates, and we will continue to provide those to you as 
the situation develops.
    I am Damon Penn, the Assistant Administrator for FEMA's 
National Continuity Programs Directorate. I recently joined 
FEMA after retiring from the United States Army.
    My first exposure to continuity programs came about 15 
years ago when I began work on some Department of Defense 
programs, and my experience with FEMA began in 2004, when I 
served as Defense Coordinating Officer for Florida. There I was 
responsible for Department of Defense response and assets in 
support of the State emergency management's efforts for the 
four hurricanes that ravaged the State. I also served in that 
same capacity for Hurricane Katrina in 2004 in the State of 
Mississippi.
    I would like to thank you for the opportunity to appear 
before you today and give you an update on the status of the 
Integrated Public Alert and Warning System, IPAWS.
    IPAWS, as you are well aware, is the Nation's next-
generation public alerting system. Its purpose is to provide 
public alert and warning services to Federal, State, local, 
territorial, and tribal emergency managers.
    In partnership with organizations like the Association of 
Public Television Stations, IPAWS will integrate and modernize 
the emergency alert system by increasing the number of 
dissemination paths to the primary entry points, or PEP 
stations. Further, it will provide an interface to commercial 
cellular carriers, giving them a broadcast cellular alert 
capability.
    In addition, the program is developing interoperable 
standards to support the distribution of alert and warning 
messages to State and local warning systems, such as emergency 
telephone network dialers, Web sites, cellular phones, and 
other technologies.
    My vision of IPAWS is to provide an effective and 
comprehensive system that enables the proper authorities to 
alert and warn over 90 percent of the American people through 
multiple means under all conditions. The end state of the 
system is that it will deliver the Presidential State, 
territorial or tribal messages by multiple means.
    As an example, imagine that a toxic cloud is released from 
an industrial accident. The individual in the affected area can 
expect to be notified by a network public and private 
television, AM/FM or satellite radio, a call to his residence 
or a cell phone call, a text message to his cell phone, a 
message on the NOAA weather radio band, and if he or she is 
disabled or unable to speak English, a message in the format 
that they can understand. And the system will accomplish this 
by the end of fiscal year 2012.
    I realize the size of this undertaking and it is not 
without its challenges, but we have made great strides in the 
past few months. Just last week, the Organization for 
Advancement of Structural Information Standards, OASIS, which 
is an international standards organization, sent the CAP 
protocols in the balloting. This will provide us the standard 
for the industry protocols by as early as the end of next week. 
From there, vendors are already working on non-proprietary 
hardware, and broadcasters will have everything they need to be 
compliant with the new standards by late next summer.
    We successfully competed a test of the emergency alert 
system last week that represents step one of a three-part 
validation towards conducting a nationwide test of EAS. As you 
are well aware, a nationwide test has never been conducted. Our 
next step is a system-wide test that we will conduct in Alaska 
in January. This is to validate our current capabilities and 
provide the credibility that has been lacking that our 
stakeholder need so they will support a nationwide end-to-end 
test by the end of fiscal year 2010.
    Army Corps of Engineers was tasked with providing 38 new 
primary entry point stations. They have completed site surveys 
on 15, they will complete the other site surveys in the coming 
months, with a complete construction date 24 months from now.
    We have also updated our outreach at all levels. For 
example, we delivered 22 regional and State briefings since 
July of last year, and we have three major working groups that 
meet bimonthly.
    During my short tenure, I have personally met with Members 
who represent the broadcast industry, the Federal 
Communications Commission, the Primary Entry Point 
Administrative Council, the White House Resiliency Directorate, 
and several people that represent State and local governments. 
I am currently scheduled to attend four major conferences of 
stakeholders before the end of the calendar year.
    Our efforts have not been one-way communications. We have 
learned a great deal from our State, local, territorial, and 
tribal partners. For example, Florida and several other States 
are helping us leverage capabilities and technologies they 
already have using targeted cell phone calling and interfacing 
with communication devices for the disabled. Texas is sharing 
the software they piloted to integrate into the NOAA alert 
system. Massachusetts and Pennsylvania are using satellite 
receivers to relay messages directly versus a daisy-chain 
approach. Texas and Washington have installed geotargeting 
systems and are testing the capability to integrate plume 
modeling into their systems, and we are trying to leverage this 
as well.
    The State, local, territorial and tribal governments are 
also clearly dictating their needs and their vision to serve 
their citizens so we can build an adequate capability into our 
systems and meet what they need and expect in the future.
    As the program runs its lifecycle, I am sure there are 
going to be developmental and engineering problems. There are 
going to be conflicts among stakeholders and program delays. 
But these will not be setbacks, they will be challenges we will 
overcome.
    Our policy is moving forward and is on schedule, and we 
will keep moving forward. FEMA and our State, local, 
territorial, and tribal partners are all committed to IPAWS and 
recognize the importance to United States citizens. I lead a 
highly dedicated group of professionals all of whom share my 
commitment and my vision of IPAWS.
    Madam Chairwoman, I again thank you for the opportunity to 
testify today, and I am pleased to take any questions you may 
have.
    Ms. Norton. Thank you both for your testimony. And Mr. 
Penn, we recognize you are new. We thank you for your 
testimony.
    I would like you to personally deliver this message to OMB. 
This Committee will not tolerate receiving testimony at 8:30 
p.m. the day before the hearing. We believe that the holdup is 
at OMB. Deliver that message before it is delivered in unison 
by the Congress through the appropriation bill. Inexcusable. 
There was even an attempt to get us, in another Subcommittee--
or I think it may indeed have been in this one--to delay the 
hearing. It will never happen. It will never happen. Plenty of 
notice. And make sure they know it so they don't put you in 
that position again because we do not blame you.
    On your best judgment, both of you, if the President of the 
United States had to send out an emergency message today, who 
would receive the message and who would not?
    Mr. Goldstein. I think it is very unclear, Madam 
Chairwoman, who would receive it. The system, on its best day, 
only 82 percent of the population is covered by the primary 
stations. And when the message leaves the primary stations, as 
the limited testing has shown so far, there is no assurance 
that a message would get very far.
    Ms. Norton. After it leaves the primary stations, there is 
not an assurance that it would reach very far into the targeted 
area are you saying?
    Mr. Goldstein. That is correct. There has been limited 
testing of the system. FEMA, in the past, has not been very 
willing to test the system, but they did finally test it 
several years ago, and three of the primary stations never 
received the message at all, which would have affected 
potentially millions of people. And thenin an inadvertent, 
accidental test in Illinois in 2007, when someone frankly 
pushed a wrong button, what happened was that the cable 
companies never received the message either. The equipment that 
the cable companies used was not functioning. And so, no, there 
is very little assurance that the system is working properly 
today and that a Presidential message would get to the American 
public.
    Ms. Norton. Mr. Penn, before you answer, we have these 
different estimates, FEMA estimates, 82 percent of the 
population--whatever that means--are covered in the day and 75 
percent at night. And just as an aside, how can it be that the 
State of Maine has no coverage--it is a big State--at all? Just 
so you know, Mr. Diaz-Balart, we believe that parts of your 
State may not have adequate coverage and that parts of Mr. 
Oberstar's district may not be covered. How can we have those 
kinds of ins and outs and gaps?
    Mr. Goldstein. The PEP stations, there are only 35 PEP 
stations, the primary stations that distribute the information 
to other stations.
    Ms. Norton. There were originally 34, and we upped to one 
more, 35.
    Mr. Goldstein. That is correct.
    Ms. Norton. What is taking so long? If PEP stations are 
what we have been relying on, why are we inching up, what takes 
so long?
    Mr. Goldstein. FEMA indicated the ability to put 69 of them 
in place within a short period of time, but they have been 
unable to reach that goal.
    Ms. Norton. If they had 69, would the coverage be----
    Mr. Goldstein. The coverage would be approximately 90 
percent at that point in time.
    Ms. Norton. Mr. Penn, what has slowed up the implementation 
of PEP stations?
    Mr. Penn. Madam Chair, I am not convinced that we had a 
comprehensive building program in our plan, and I am not sure 
that we took into consideration the time that it would take to 
build the stations out and establish the protocols needed for 
them. Our current plan is to build 74 stations, and we have the 
Corps of Engineers building those for us. As I mentioned 
earlier, 15 of those sites have already been site surveyed, so 
we know what the requirements are. The others will be done in 
the next few months. And then 24 months is what we estimate it 
will take for us to get all of those PEP stations in place and 
tested and ready to operate.
    Ms. Norton. So, for the record, you will have almost 
doubled or doubled the number of stations up to the numbers--is 
it 74--within how many months did you say?
    Mr. Penn. Within 24 months.
    Ms. Norton. Within 24 months. And you have an 
implementation plan for doing it rather than a simple goal of 
the kind FEMA has had and never met?
    Mr. Penn. Yes, ma'am, we do. We have already contracted 
through the Corps of Engineers. The funds are available, they 
have them. They have given us a report that their program is on 
budget and that it is on time. And we don't expect to have a 
problem with delivering the stations, as promised.
    Ms. Norton. That is very good news.
    Is the PEP station the primary way we should be giving 
these alerts today? We are talking 50 years of progress since, 
or maybe not. You have to think what will reach the greatest 
number in the shortest amount of time, or should there be more 
than one way to reach the greatest number? What do you do in an 
infinitely mobile society to make sure that there is 
notification that is timely?
    Mr. Penn. Madam Chair, it is a primary entry point for the 
message to get to the broadcast community, so that is what 
makes the PEP station so important because it is the gateway 
into everything else, and all the other capabilities that we 
mention.
    As I mentioned in my earlier testimony, another major 
breakthrough has been the CAP program, the common alerting 
protocols that make sure that all equipment that the States and 
locals have and all the equipment that we develop will all talk 
to each other and all be of the same protocol, so it will be 
interoperable.
    Ms. Norton. Mr. Penn, this is very important what you are 
saying. By the way, how did you reach that number of 74? Why 
not 84 or 104?
    Mr. Penn. When we did a coverage survey, Madam Chairwoman, 
that is the number that we determined we were going to need 
based geographically.
    Ms. Norton. In order to get to what percentage of the 
population and in order to get to the State of Maine, for God 
sakes?
    Mr. Penn. With a target of better than 90 percent coverage.
    Ms. Norton. Does that include the State of Maine?
    Mr. Penn. Yes, Madam Chair, it does.
    Ms. Norton. Why is Maine a blackout here?
    Mr. Penn. To be honest with you, I do not know.
    Ms. Norton. I want you to report. I think it is very 
serious to have a State that is vast in its land space but not 
in its----
    Mr. Goldstein. If I may, Madam Chair, Maine is covered by 
public radio stations, which are connected to the EAS system 
through satellite, but they don't have a primary entry point so 
there is a different approach. But there are problems with that 
approach.
    Ms. Norton. Does that mean they would get the notification, 
the State of Maine, as quickly as we would in the District of 
Columbia?
    Mr. Goldstein. That is unclear, and the primary reason is 
because they are not developed as PEP stations, and so, 
therefore, they are not designed to necessarily have someone at 
the stations all the time or to have fuel and redundant systems 
in place----
    Ms. Norton. They may not have backup and so forth?
    Mr. Goldstein. That is correct.
    Ms. Norton. Mr. Diaz-Balart, I think you may have a vote. 
I, regretfully, do not yet have one, so--soon though.
    Mr. Diaz-Balart. Despite your best efforts.
    Ms. Norton. Indeed. So I am going to ask you for your 
questions at this time.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. And I believe 
there are three votes.
    Mr. Penn, let me first thank you for your service to the 
country and the military. And then also, yes, thank you also 
for the 2004 season. That was slightly busy when you were the 
DOD coordinator in Florida. Thank you for the job that you have 
done there.
    One of the concerns that I have is--and again, I preface 
this with the fact that we know that you haven't been there 
long. I know your background, and I know that you are a person 
who delivers. But obviously one of the concerns that we have is 
that these timelines have continued to constantly shift, so the 
purposes and the goals have continued to change. Obviously one 
of the concerns that we all have is the fact that this doesn't 
continue to happen.
    Secondly, so I can kind of get them both out, is it correct 
that, Mr. Goldstein, you mentioned that if 69 of those plans, 
PEPs, were out there, about 90 percent of the population would 
be subject to get notified, correct? But that is assuming that 
they work, and we have some questions about them working and 
the information being up. So even that is, frankly, a bit of a 
positive outlook, is it not, rosy outlook?
    Mr. Goldstein. Yes, it is. The limited testing that has 
been done so far indicate that there are problems with the 
system in which a message may not be received by intended 
recipients.
    Mr. Diaz-Balart. Now, am I to understand that there is not 
one of those in southern Florida?
    Mr. Goldstein. A PEP station, sir?
    Mr. Diaz-Balart. Yes.
    Mr. Goldstein. I would have to get back to you. I would be 
happy to.
    Mr. Diaz-Balart. Great, thank you. And again, going back to 
my question--and Mr. Penn, I apologize, your rank was what when 
you retired?
    Mr. Penn. Colonel, sir.
    Mr. Diaz-Balart. Well, once a colonel always a colonel. So 
again, obviously, Colonel, our concern would be that these 
deadlines continue to slip. And I don't know if you want to 
comment on that whatsoever.
    Mr. Penn. Yes, sir, I would, please, if I could. First of 
all, we will provide an outline of the PEP station locations 
back to the Committee within 30 days, not just for Florida and 
for Maine, but to give you an idea of where they all outline.
    I apologize for this graphic and not having provided it 
ahead of time, but I thought about it at the last minute and 
thought I would bring it over. I think this will help explain 
part of your question about the timeliness and why things take 
so long for us to process. But I would like to preface those 
comments by saying that I am here now, I have a very clear 
vision, I have communicated that throughout, and I do not plan 
on changing that. We have also made some recent hires of some 
very dedicated, experienced professionals who will keep us on 
track.
    But the graphic is on my left. And it is not important that 
you be able to read the words, but I ask you for your attention 
to the three yellow bands that go horizontally, and then the 
three pieces that go down the left in blue. This is a snapshot 
of our overall systems plan. And what I did was took a small 
part of that to illustrate how things run concurrently and how 
some have to run sequentially. So if you take the first bullet 
there across the top that talks about the CAP, you can see in 
the fiscal year 2009 development process that we did, it took 
us an entire year. And you can see the blue arrow there, and 
that is the balloting that I mentioned as a major breakthrough 
with OASIS. And that is important again because it establishes 
a standard for everybody to adhere to for all equipment that 
they bring forward.
    The next period that you see between those two diamonds at 
the top is the amount of time that it will take us to have 
industry do their physical development of the hardware and the 
testing of the hardware that is required. And then the final 
part that is to the right of that diamond is the 180 days that 
are regulatorily required to give the broadcasters time to 
implement their plan.
    So when you look at that first row from left to right, it 
seems like a lot of time transpires, and it does, but a good 
portion of that is testing and fielding that we have to have to 
allow the hardware to be developed, and then the amount of time 
for the broadcasters to be able to implement that.
    Now, if you look at that chart from top to bottom, though, 
it will show two other programs that are happening 
simultaneously. Sea mass development, and then the PEP station 
development that we talked about before.
    So I say all that to tell you that I think my biggest 
personal challenge is to maintain momentum of our program. I 
think we are on the upswing on stakeholder buy-in, I think we 
are on the upswing on education, I think we are on the upswing 
on buy-in from the States, locals, territorials, and tribals, 
but my challenge is to make sure that when they look at single 
entries, as I just mentioned on this development plan, that 
they don't focus on where they necessarily fall into only that 
one line, but that they look vertically as well and see where 
they fall into the whole program and where we need their 
continued support throughout the whole program.
    Mr. Diaz-Balart. Colonel, let me ask you--and again, I said 
we obviously understand you are new, and I have seen your track 
record, and obviously I am also a big fan of the new FEMA 
Director as well, who we know very well in Florida. And I keep 
saying unfortunately because we wish we didn't have to deal 
with these issues, but we do.
    Now, can we get your commitment that you will commit to 
provide this Committee, this Subcommittee and this Committee, 
with regular progress reports on the implementation of IPAWS so 
we can track the progress and know if any of the changes are 
occurring and any timetable slips are happening, whatever; can 
we get that from you?
    Mr. Penn. Yes, sir. I propose that we send you a written 
report once a quarter. And then of course we will meet at your 
convenience any time you would like more testimony for an 
update.
    Mr. Diaz-Balart. Madam Chairwoman, if I could indulge in 
one last question, thank you again for your courtesy.
    Most emergency managers often say that one of the biggest 
problems with alert systems is that they basically frankly hit 
way more people than are in harm's way, which obviously impacts 
their usefulness. So one of the benefits of the modern system 
would be the ability to target alerts to those affected 
communities.
    How localized would an emergency manager be able to target 
an alert under the system that you are looking at?
    Mr. Penn. Sir, with the systems that we have looked at so 
far in Texas and Washington, we have really asked to be able to 
do two different things. They have systems that fulfill part of 
this need, but their overall vision is the ability not only to 
target specific geographical areas, and those could be as large 
or as small as the communications infrastructure would support. 
If we are talking about sending a cellular message, of course 
there is a limit to the number of calls that can be made at one 
time. But over time then that number is, in essence, infinite. 
But our challenge there is to make sure that we target in the 
right sequence so we get the most affected areas first. That is 
some of the work that we are doing there.
    The other part of the work that we are doing, and it looks 
very promising is the ability to integrate plume modeling and 
other devices so it helps us decide which areas get targeted 
and which areas get notified first. So if you had an industrial 
spill, as I mentioned before, then to be able to target the 
people directly in the path of that cloud first. And those are 
the kinds of systems that we are working on there.
    Mr. Diaz-Balart. Thank you, both. I will be back right 
after votes. Thank you, Madam Chairwoman.
    Ms. Norton. Thank you very much, Mr. Diaz-Balart.
    I just can't get Maine off my mind, you have to forgive me. 
I haven't been to Maine very much, but whenever I see somebody 
really in need, I got to ask, are we going to build a PEP 
station there? Are your 74, your twice the number you have now?
    Mr. Penn. Ma'am, I will have to get back with you.
    Ms. Norton. I mean, there may be a reason. You will find me 
not a what person, but a why person and a how person. So my 
real question is why? Then I go on to, well, why? There may be 
a good reason. If they are relying on public broadcasting, 
well, you don't rely on it here, you don't rely on it in 
Florida. How come Maine got left to that? It has big cities, it 
has rural areas. So I need, within 30 days, an explanation as 
to why an entire State is left out there?
    I am looking here at this map, Mr. Penn and Mr. Goldstein. 
There are States where you, for efficiency reasons, and because 
of the way communication works, as in the District of Columbia, 
for example, Maryland and Virginia work very often through us, 
the center of the universe. And you will find other areas where 
the center of communications system will overlap. But I am 
looking on this map, and I just don't see any State--well, 
Vermont looks pretty much in need.
    Mr. Goldstein. Vermont is not covered either.
    Ms. Norton. Look, I see large gaps. I expect to see large 
gaps if you are doubling the number. So, it is a question of 
what are we going to do about Vermont and Maine? I would like 
to know why, in the first place, were--you know, you have got 
up in that area New Hampshire and Massachusetts saturated. And 
I am just at a loss to understand even the targeting mechanism 
for the PEP stations. If I can understand it, then it could be 
quite fine. But if you would make me understand that. And I 
would like to know in 30 days whether, one, what is going to be 
done? Because I have no idea what should be done, I am not 
saying what should be done, but if in fact with an almost 
doubling or more than doubling of the number of PEP stations, 
then I would want to know if Vermont and Maine are to remain 
uncovered, why? And what is to assure them of fairly equal 
access, by which I mean of course 24-hour access, somehow or 
the other somebody on the network has 24-hour access.
    Mr. Penn. Yes, Madam Chair, I will get you that. And I will 
get you overall coverage for the Nation as well so that you 
understand what areas we can reach.
    The original plan for the PEP stations, as I understand it, 
was to focus on the larger populated areas first, and then, as 
you do the buildout plan, go to some of the more sparsely 
populated areas. And that may be why Maine doesn't currently 
have a station. But the focus was to try to reach as many 
people as you could as early as you could and then build out 
the capability from there. But I will get a proper response 
back to you, Madam Chair.
    Ms. Norton. Thank you, Mr. Penn.
    I serve on the Homeland Security Committee as well. We have 
been in a terrible conundrum about interoperability and the 
rest, but I must say I am really caught short on how to get my 
arms around State and local governments going out on their own.
    I do not know what they are doing, I have no idea whether 
it would be useful, I have no idea how it will be tied into 
whatever is being done at the national level; and I would like 
to hear from both of you. Make me understand why a single 
dollar which is spent at the State and local levels today is 
guaranteed in any way to have any relationship to what it is 
that is being done at the Federal level.
    Or perhaps we ought to have 1,000 flowers to bloom, so 
maybe there should be a multimedia approach. We have many 
different ways of communicating today. You could have a 
national system--this system that you are building out--plus 
these other systems; but I need to know how you envision, how 
you see what, for example, we would end up with and what it 
would look like, given where the State and local governments 
are. And I would like to know how far ahead of us they are.
    Mr. Goldstein. I think it varies, Madam Chair.
    For instance, in our survey, recently, that we did of all 
the State emergency management directors, we found that the 
majority of them are building their own systems without regard 
to what the Federal Government is doing.
    Ms. Norton. What kinds of systems are they focusing on?
    Mr. Goldstein. They vary in different kinds of ways. Some 
of them would be compatible with what the Federal is doing. In 
fact, 10 of them already use a CAP-compatible system, but most 
do not.
    Ms. Norton. So let me stop you there.
    If they are not using a compatible system, what would be 
the effect of what they are doing?
    Mr. Goldstein. Well, it is a potential Tower of Babel where 
the State and local governments and the Federal Government 
would not be able to get out a----
    Ms. Norton. Smokestack systems then?
    Mr. Goldstein. That is correct.
    They would not be able to get out a message effectively.
    Ms. Norton. Well, I will ask you and Mr. Penn.
    It sounds to me as if States are in bad need of guidance. I 
am going to tell you that they are going to come in here and 
they are going to testify that we made them do it, that without 
Federal guidance, particularly in places that I would think 
people would feel themselves particularly vulnerable--if I were 
on the east coast or the west coast and you folks would not 
move, I would just have to move.
    Even in a matter that affects interstate commerce, as a 
matter of constitutional law if the Federal Government will 
not--if there is a hole, the courts will allow--here, of 
course, no legal question is raised, but to show you just how 
responsible State and local governments will feel, they will 
allow folks to do whatever they have to do.
    So I am very concerned that in the, shall we call it, 
fascination with technology, with people going around and 
selling people the Moon, that we are going to have systems upon 
systems built and billions of dollars spent for only one 
reason: There has been no Federal leadership, no Federal 
guidance. So what else can you expect people to do?
    You need to tell me what we should do, what the 
Subcommittee should be doing, what you should be doing right at 
the moment to inform or alert the States and localities of 
whatever it is you think they should know.
    Mr. Penn. Well, Madam Chair, I think your assessment is 
exactly correct. We have 50 States with 50 solutions because 
they have 50 different sets of problems. The reason they have 
had to develop their own solutions is because we have not given 
any national-level guidance and have not given them anything 
that they can use to build their systems on.
    I continue to go back to our Common Alert Protocols. I 
think that is the first step in making sure that all the 
hardware that everyone purchases in the future is compatible 
with all the other hardware.
    Ms. Norton. That is what you have just shown us?
    Mr. Penn. Yes, ma'am.
    Ms. Norton. By the way, I am going to say to you, Mr. Penn, 
that is the kind of thing that impresses this Committee, and 
maybe your military background helps to explain why you 
understand goals, and how goals mean steps and that nobody 
believes in goals without steps. So I was very pleased to see 
what you offered us there.
    This is my concern: I am now the State of Podunk, located 
in the County of Nowhere. Administrator Penn, I am about to put 
out an order for this super-duper technology, way better than 
EAS and anything you could possibly do. What is your advice and 
counsel when I write you tomorrow, asking what you think I 
should do?
    I am about to put it out. We have got a little bit of 
stimulus money. We will use some of that up on it. We are 
committed to the rest. Mr. Federal Government, tell us what to 
do.
    Mr. Penn. Well, first, Madam Chair, I would ask that you 
adhere to the recently established Common Alert Protocols so we 
make sure that your systems can communicate with all the 
Federal systems.
    Ms. Norton. Mr. Federal Government, I am on board with 
everything you have given me so far, which ain't much, which is 
why we are doing our own.
    Mr. Penn. Yes, ma'am.
    Ms. Norton. Now, Mr. Penn, you will also find, when I ask a 
direct question, I will not stop until I get a direct answer. 
If you need to go back and figure it out, that is the best 
answer. If you think you know what you would do, then that is 
an answer. But "doing what they are already doing well" is not 
an answer.
    Mr. Penn. No, Madam Chair. I am referring to the protocols 
that we are getting approved through the OASIS Foundation right 
now. Those will establish the language that all the computers 
need to speak.
    So I would ask you, as a State, if you were buying 
anything, that it adheres to those protocols. That way----
    Ms. Norton. Protocols, which will mean your system will be 
compatible with whatever we do in the Federal Government, and 
those protocols already exist?
    Mr. Penn. Those are currently being balloted on by the 
organization. I expect those to come out and be published in 
the next week or two. And then those will become the industry 
standard for all the equipment that is developed that we are 
going to use as a Federal Government; and it will be--if you 
purchase equipment with the same protocols, you will be able to 
communicate with all the Federal Government equipment.
    You will also be able to communicate with all of the other 
States that are developing programs. So, if Indiana has a good 
idea and they develop a system, then you will be able to 
purchase your system to use in your State, and you will be 
ensured that it is compatible with everything else that the 
Federal Government is using and the other States are using.
    Ms. Norton. And it will all go through that Federal matrix 
of your protocols so that you will know about Indiana, et 
cetera?
    Mr. Penn. Yes, Madam Chair. For lack of a better term, it 
will have a stamp on it that says it is compliant with CAP.
    Ms. Norton. So, in light of that, you would not say, Do not 
go. You would say, Go, if you would like, but with the 
protocols you have just described?
    Mr. Penn. Yes, Madam Chair, because throughout this whole 
process, as I mentioned, there are 50 States with 50 different 
sets of needs. They may have equipment that they need to 
develop to notify people in a rural area that might not 
necessarily be needed in an urban area. So they may need to do 
some of that to satisfy their own requirements as a State and 
their own alert notification requirements. But if they are 
lined up with these protocols, then they will also be able to 
channel from the Federal Government the message through all of 
those means that they have down to their citizens by the 
redundant capabilities that we are discussing.
    Ms. Norton. Mr. Penn, in my hypothetical--all of my 
hypotheticals come out of my experiences as a law professor. In 
my hypothetical, someone has had the prescience to actually ask 
you before spending his money.
    Your testimony and the testimony of Mr. Goldstein is, 
people are not asking the unresponsive Federal Government. So 
my next question is, don't you feel that you should put out 
proactive guidance of the kind you have just given and of, 
perhaps, other concerns or matters now to the States and 
localities throughout the United States?
    Mr. Penn. Yes, Madam Chair. I think you are absolutely 
right. I think what we have done up to this point is, we have 
had a coalition of the willing; and the States that have 
participated and the broadcast organizations that have 
participated are already into what we are doing, and they are 
all very supportive.
    Ms. Norton. Say that again.
    Mr. Penn. I think the States that have elected to 
participate and the broadcasters and others that have elected 
to participate have all bought into what it is that we are 
asking, and they agree that we are going in the right 
direction.
    Ms. Norton. I do not know what the word "elected" means, 
because your testimony indicated that there had been outreach. 
Can you therefore explain--maybe those elected are the ones who 
cannot come forward or are knowledgeable--why it is that we 
have found many stakeholders, including broadcaster 
associations and local government officials, who are unaware of 
the IPAWS program? That was frightening.
    Some are unaware of your goals. Some have never heard of 
IPAWS. A majority of the States' survey respondents said they 
had received little or no information. So who is this, electing 
to come forward?
    Mr. Penn. Well, yes, Madam Chair, and that is why I said 
"elected," because we have not done a good job of educating and 
sharing our program across the broad spectrum. We have had some 
targeted engagements----
    Ms. Norton. So how are you going to rectify that when you 
have whole gaps and who even knows what your initials stand for 
and you are way ahead of them now into protocols for their 
computers?
    Mr. Penn. Well, part of my outreach strategy is to start 
with Administrator Fugate, and when he meets this fall with--or 
actually this winter with the State emergency managers, one of 
the items on his agenda is to discuss IPAWS and to make sure 
they understand what the system is and how it works.
    Ms. Norton. Who is going to elect to come?
    Mr. Penn. That will be all of the State emergency managers 
in that forum. I think that is the first step.
    Ms. Norton. When is that to take place again, please?
    Mr. Penn. I think it is January, Madam Chair, but I will 
have to verify. It is either January or February.
    Ms. Norton. Within 30 days, would you verify when that will 
take place? Since those who "elect" to come may get the word 
from Administrator Fugate, would you also tell us within 30 
days how you intend to inform the stakeholders of what you are 
doing in a readable and brief-enough form to be read?
    Particularly, I am concerned with them knowing about doing 
their own systems without making sure they are going to be 
compatible.
    Do you have any idea, Mr. Goldstein, how many of these 
systems are not compatible as of now?
    Mr. Goldstein. It is our understanding that, right now, 
only 10 States are CAP-compatible. But I need to also mention 
one thing, which is that CAP is not a magic bullet. CAP does 
not allow for the receipt of live audio, for instance, and so 
there are questions about the ability of CAP to be an effective 
protocol.
    Ms. Norton. Well, that leads me, of course, to the question 
of what is the ideal national system--CAP plus what?
    Now, I ask this question with some hesitation because the 
industry knows how to update and how to reinvent itself into 
newer and newer forms of technology. Okay. There comes a point 
when whatever is the next doodad is of not much interest to me. 
It may be of interest to my grandchild, but this is not about 
playing games. It is about systems that are state of the art, 
that will not have to be updated every year in order to be 
useful.
    If you have a vision of what you are doing--and Mr. Penn, I 
certainly see a new vision for IPAWS--what is the vision for a 
communication system that would incorporate more than the CAP 
system, recognizing that the States are already into some 
systems beyond the old, traditional system?
    Mr. Penn. Yes, ma'am.
    The CAP is, for lack of a better term, a language that says 
that any equipment that you have will follow this same 
language, so that is the thing that connects us together.
    Ms. Norton. But do we really want people to leave people to 
the salesmanship of high-tech types who always have a new 
doodad for you and some advice and counsel on what it is we are 
aiming for?
    Now, if people want to spend their money over and above 
what it would take to have a national system that incorporates 
technology, state-of-the-art technology, recognizing that that 
covers a broad field, would you be in a position now or in the 
future to offer them advice about what a national system 
ideally should look like?
    Mr. Penn. Yes, Madam Chair. I think, in working with them, 
they will tell us what the system should look like. That is 
another deficiency, I think we have had: We have not actively 
solicited the solutions that are there and the needs for the 
States.
    Ms. Norton. What mechanism do we need to have in place to 
do that kind of solicitation?
    Mr. Penn. Well, the first thing we need to do, Madam Chair, 
is build some confidence and some credibility into what we are 
doing. Because part of the problem, I think we have with the 
stakeholders is, they are not ready to come forward because we 
have not proven as a Federal Government that we can deliver 
what I just told you we are going to deliver.
    I think we will go a long way with that with our tests that 
we are doing in January in Alaska, where we will do an end-to-
end test of the network, which will be the first one that we 
have done at that level before; and then we will follow it by 
the end of 2010 with a nationwide test from end to end that 
will show that the whole system works.
    Ms. Norton. The testing is something that is happening, and 
it will be important, but these people are not even trained to 
use the present system. Too many of them are seeing nothing at 
the Federal level and have not even bothered. Here we have had 
to put in a bill directing that there be advisory committees.
    What would a true system of input look like? Are you 
building such a system?
    Mr. Penn. Yes, Madam Chair. I see it as a series of 
conferences and Committees and Subcommittees, a real 
organization that does not address the overarching problem--we 
know what that is, and we have discussed the systems that we 
need. We need someone like Mr. Witmer behind me here, who is a 
technician and who can get together with a group of 
technicians; they can discuss the solutions and work out the 
nuts and bolts of how you do this. And we have started that on 
a small scale; we need to make that much larger.
    Ms. Norton. Mr. Penn, we point back to May 2008 when FEMA 
intended to create stakeholder and State Subcommittees for 
stakeholders in compliance with the Federal Advisory Committee 
Act, and that has not been done yet, apparently. Neither the 
Federal nor the State Advisory Committee has been implemented, 
and that is why, you know, we just put a bill in.
    You figure, when you are talking to grownups, you get a 
commitment, and that is all it will take, but we have other 
devices known as a matter of law. We also have appropriation 
bills that can cut people's funds or make people use their 
funds in certain ways, but that is really what you do with 
children.
    So you speak about these Committees; in 30 days, I want to 
see the outline to this committee of what a system with 
stakeholders embedded in your work--virtually embedded, since 
you are right that you cannot do this blueprint style, top to 
bottom--would look like. It does not have to have all of the 
stuff; we just want an outline of what it is you intend.
    If you submit that to us and would submit this around the 
country, it seems to me you would begin to let them know that 
it is coming, that it is a matter that the Subcommittee wants 
to do, that you want to do, and that it is going to happen this 
time because they have had their promises.
    Ms. Norton. You know, part of what happened to FEMA is, 
these people were shifted in and shifted out. No wonder there 
has been no vision of what IPAWS should look like and where it 
should go. Staff turnover. So, sure, if you can have a lot of 
staff turnover, then whoever comes in is going to do something 
that may be different unless it is so firmly established that 
there is a reason to continue it. And of course everyone 
knows--you have acknowledged that the personnel shifts have 
affected your work.
    Now, one of the problems this Subcommittee has--and we know 
that an agency is not serious if it is largely relying on 
contract workers, if it is not building it in. And contract 
workers can go off to the next contract if somebody happens to 
get a Federal contract.
    We were disturbed at the figures from FEMA as reported by 
GAO in June 2009--this is very recent--27 contractor staff, 5 
FEMA IPAWS staff positions filled out of 11 noncontract, full-
time positions available. See, that is a signal to a 
Subcommittee that these people are doing this out of their hip 
pocket.
    So I have got to ask you about staffing, permanent 
staffing, that shows us and shows States and localities that 
this is a new beginning for IPAWS and what goes with it.
    Mr. Penn. Yes, Madam Chair.
    We have also hired, sitting behind me, Mr. Antwane Johnson, 
who is a systems engineer with 20 years' experience. He just 
came over to us from DOD. So, with him and Mr. Whitmer, I think 
they are the leadership of IPAWS; and as you are aware, I just 
joined FEMA and this project recently, but I plan on being here 
through the completion of the program.
    Ms. Norton. Wait a minute. Are you hiring permanent staff 
to get this job done or are you going to continue to rely on 
contract people who can come and go?
    You know, do you have the positions or not?
    Mr. Penn. Madam Chair, I have a combination of both. 
Currently, I have 11 full-time positions in IPAWS. Of those 11, 
I have 7 that are filled. I have one that we just got a name 
against, we made an offer to. The other three close out this 
week in the government offering system.
    Ms. Norton. So you are going to fill most of these 11 
positions?
    Mr. Penn. Yes, Madam Chair. That is my goal, to fill all 
11.
    Ms. Norton. Now, why have you been relying on--you know, 
the administration has said it is going to rely less on 
contract. The present majority believes that the proliferation 
of contract workers has meant more and more hands off as far as 
our ability and the Agency's ability to track its own progress, 
to know whether or not there has been any progress at all 
because of the way contracts work.
    Now, why is FEMA, at least at the moment, using a majority 
contractor staff for this national work that is vital to 
national security and to all we do to alert people about 
natural disasters? Why is there this division at all?
    You have still got to pay money out. Why are you preferring 
to pay it out to people who are responsible to your contractor? 
This may not be his most important contract, and he can put 
those people out any time he wants to if he thinks he has got 
another contract--I don't know, some DOD contract, he had 
better get that done; or they have got a deadline on this one, 
so off those people go.
    I mean, why, if this work is important, has FEMA got this 
kind of subdivision, this kind of division of work?
    Mr. Penn. Madam Chair, that is a good question.
    In addition to the 11 permanent staff that I just 
mentioned, we have 15 contractors that are part of our program 
management team. They do technical support and they do business 
operations.
    Ms. Norton. Do they have skills that you do not have in-
house?
    Mr. Penn. Well, one of the challenges, Madam Chair, is, 
this is a program with an end date. We expect it to be 
completed in 2012. So you cannot necessarily hire full-time 
Federal employees for a program that we know is going to one 
day be completed. So that is one of the reasons why we have the 
contractor support.
    The other reason is, at different times throughout the 
project, we need certain capabilities and certain technical 
skill sets that we might not necessarily need when we get to 
other parts of the program.
    Ms. Norton. Oh, and we can understand that.
    If, in fact, you were to tell me that these 27 people had 
skill sets that are useless to, of all people, the Department 
of Homeland Security, except on its project, then I would 
understand. Because nobody would want to just hire permanently 
people for--particularly with these kinds of upgraded skills.
    But you are part of the Department of Homeland Security. I 
can tell you, as a Member of that Committee, I have not been 
particularly impressed by their own level of technology, so I 
can understand that this was supposed to be an end date.
    I must say, in light of the poor record of FEMA on IPAWS, 
it is amazing that they would use contract employees as a 
reason of saying, Well, you know, this is only a short time. 
They have almost done nothing since our last hearing, so these 
have become, in effect, full-time people because we have gone 
on for so long.
    Just to put you on notice--you are new, Mr. Penn--we are 
going to require you to justify contract employees as necessary 
in this top-heavy way and as useful only for this project, 
rather than to allow this division, because we believe this has 
lots to do with the ins and outs of the matter.
    Mr. Goldstein, how has having contract workers move on and 
off affected the ability of IPAWS to develop?
    Mr. Goldstein. I think the combination of not having much 
of a permanent staff in the government and the turnover of 
staff and the turnover of project managers--there have been 
four in 2 years--combined with a contract staff that is not 
permanent, has clearly affected the program's implementation, 
the changes in vision and the slowness of the program's 
development.
    I would also add that we think that some of the pilot 
projects that were put in place under IPAWS, because they have 
not been able to document lessons learned from these projects--
in fact, a consultant recently determined that, of 28 projects, 
there was only status information available for 18 and that was 
only partial information. They have had a very difficult time 
documenting information in the program and using that 
information to leverage actual changes in IPAWS.
    Ms. Norton. Well, I thought the whole point, Mr. Penn, of a 
pilot project--you have got to tell me what is going to come of 
this and how much has been expended, because I thought the 
point of a pilot project was precisely to document it so you 
could use the information to move forward.
    So whatever happened to these pilot projects? And how much 
in Federal funds has been spent on them?
    Mr. Penn. Madam Chair, I think Mr. Goldstein is referring 
to, among others, the Sandia contract project that we had 
several years ago where we, in fact, did not get the product 
that we were required to receive. We did not get the lessons 
learned; we did not get the results of the project as were 
outlined in the contract. That was a single overarching 
contract that covered pretty much the whole of IPAWS at that 
particular time.
    We do not have any contracts like that now, and I do not 
plan on initiating any contracts like that. The management of 
the system is my responsibility and mine alone, and we will 
continue to do that, but I think there are times in the 
foreseeable future that we will need short-term contracts for 
specific parts of our system and what we are doing.
    Ms. Norton. Out of the total number, there were reports on, 
did you say, 18?
    Mr. Goldstein. There was some information available on 18 
of 28. It was not a lot of information. The status and 
deliverables were only partly available, according to the 
consultant, and a lot of the documentation that would help FEMA 
use the pilot projects to implement permanent solutions was 
simply not developed and moved forward either for their own use 
or for the use of the stakeholders.
    Ms. Norton. Mr. Penn, within 30 days, the Subcommittee 
wants the figure of how much has been spent in total, 
recognizing that some of it might have been useful.
    Ms. Norton. How much has been spent, total, on pilot 
projects?
    This Subcommittee wants notification ahead of--I mean, it 
is the separation of powers. You can do that if you want to do 
it. We want notification if you intend to do any pilot 
projects. We want to see what the pilot projects are for and 
what the deliverables will be and how you will enforce them.
    Do you intend to do any pilot projects in the future, in 
the near future?
    Mr. Penn. Yes, Madam Chair. The program that I mentioned in 
Alaska, where we test the full system, is in fact a pilot 
project.
    Ms. Norton. When is that going to be?
    Mr. Penn. That happens in January of next year.
    Ms. Norton. In 30 days, we want to see it. We want to see 
what the plan is, how we will track it, how we will use it, why 
it was chosen.
    I am going to ask the Ranking Member, who has returned, if 
he has any questions before I finish my questions.
    Mr. Diaz-Balart. Thank you, Madam Chairman. I know that you 
want to move along, so I will be brief.
    Ms. Norton. Go right ahead.
    Mr. Diaz-Balart. Before the votes, we talked a little bit 
about this, but I want to kind of go back to it.
    The GAO in its report--and frankly, today's testimony--
highlighted the number of areas of concern about the EAS and 
IPAWS. In particular, the GAO points to missed deadlines and to 
timelines and timetables; and we talked briefly about that. In 
fact, there appear to be a number of discrepancies between 
FEMA's IPAWS and the implementation plan issued in June of this 
year and what FEMA's previous timetables were; and I alluded to 
that before.
    For example, the current implementation plan includes a 
target date of 2010 for the GAO targeting capability, but 
FEMA's previous timeline was 2007. The implementation plan 
anticipates an EAS link this year, but the previous FEMA 
timeline anticipated completion of these by, again, 2007.
    For the PEP stations, expansion is now slated for 2010 to 
2011, as opposed to, previously, when it was supposed to be 
2008.
    So, you know, how can you account for why the IPAWS program 
has failed to meet these deadlines? Obviously, we need your 
assurances that we will meet those timelines, and I think you 
have already given us those assurances, but--obviously, I think 
you understand the nature of these questions when you look at 
some of the specifics in the GAO report.
    Mr. Penn. Yes, sir.
    I think, again, part of our problems with the overall 
project management and the way we have done that and what we 
have and have not done, I think, as an organization, is that we 
have also not done a good job of capturing the lessons learned 
and all of the deliverables as mentioned earlier from the 
contracts that we have let.
    So my plan for that is more vigilant management of the 
system, and I will provide the status of where we are and 
updates to you quarterly, as I committed to earlier.
    I would like to say that everything is going to proceed on 
track and that there are not going to be any problems or any 
time slippages of any programs that we have to support IPAWS. 
But I do not think that is realistic. I think the way we manage 
those and how we handle those and how we make them work with 
the other parts of the program are what is critical to a 
favorable outcome of IPAWS.
    Mr. Diaz-Balart. Madam Chairman, two more if I may. I know 
that you want to move forward, and I know we have the other 
witnesses.
    Look, I am not going to lie to you. I have to admit to 
you--and I told you this before--I feel better just with the 
fact that I do know your track record in Florida. And I also 
know the FEMA administrator well, and there is nobody better in 
the country. However, obviously, I think there has been 
demonstrated an urgency for this legislation to move forward, 
and I appreciate your committing to getting back to this 
Committee.
    Mr. Goldstein, I do not expect you to comment specifically 
on a bill--you know, whether you like it or you don't. But 
could you comment, are some of your concerns dealt with in the 
legislation that the Chairwoman and I have been talking about 
today and that the Chairman of the Full Committee, Mr. 
Oberstar, has agreed to put into his bill, which is one that I 
have sponsored?
    Mr. Goldstein. I think that any effort to improve the 
accountability of FEMA to achieve the objectives and to be able 
to put together a program that runs effectively, that has goals 
and objectives and an implementation plan that is provided not 
just to Congress but can be used by stakeholders to chart their 
own course, all of that is very helpful. Being able to 
communicate with the public and the stakeholders will be 
critical as well.
    Mr. Diaz-Balart. You also mentioned in your testimony--and 
I have it marked--you mentioned, obviously, that State and 
local governments are implementing warning systems which may be 
difficult to integrate with the broader system.
    Would it be fair to say that time is of the essence?
    Mr. Goldstein. Yes, sir. I think one of the reasons that 
States have moved out on their own is because there has not 
been clear direction from FEMA over the last couple of years, 
and they have felt the urgency to do so on their own.
    Mr. Diaz-Balart. Great. Thank you.
    Thank you, Madam Chairwoman.
    Ms. Norton. Thank you, Mr. Diaz-Balart.
    Just one or two more questions.
    You know, probably ever since 9/11, people think of 
terrorism, and the alert that they most don't want to get would 
be one of those alerts.
    This Committee, as I indicated in my opening remarks, 
mainly deals with natural events. DHS, because of the all-
hazards concept, should be particularly concerned with the slow 
movement here because DHS is fully involved in natural events 
as well. But what is the involvement of DHS with a system that 
has lagged so far behind after 9/11 when almost everybody was 
on alert to do better?
    For example, the GAO, if you look at that report, GAO was 
not able to document reporting requirements or performance 
measures that were mandated by FEMA or DHS.
    Are there now regular reporting requirements? Are there now 
regular performance measures?
    Mr. Penn. Madam Chair, there will be, from my perspective, 
now that I am in the Chair. I am not sure what the reporting 
was in the past and how that worked, but it is certainly my 
intention to----
    Ms. Norton. Well, let's hear from Mr. Goldstein.
    What was it like before so we will know what a before-and-
after would look like?
    Mr. Goldstein. Madam Chair, it was very difficult for GAO 
to obtain any documentation about how the goals were 
established, what the goals were, what kind of----
    Ms. Norton. Were there goals?
    Mr. Goldstein. There were some very vague goals that most 
people would not commonly refer to as "goals."
    Ms. Norton. Different from those protocols, for example, 
than Mr. Penn spread across the----
    Mr. Goldstein. There were some very vague, general 
objectives for what a program would be; and they changed fairly 
quickly. There were no--we were not able to obtain any 
performance measures. Implementation plans over a long period 
of time did not exist, and again, general documentation that 
you would expect to see in the audit of any program simply was 
not available.
    Ms. Norton. So, Mr. Penn, I will not ask you what you have 
got. You see what you don't have, and that is what the 
Committee is going to be looking for.
    GAO is going to be coming in. This is all about having an 
objective, outside evaluator. So they have got to be able to 
report to us on the performance goals, et cetera, the next 
time.
    Let me ask you about the training. It was very 
disconcerting to hear the stakeholders unable to use the 
existing system.
    In 2007, GAO recommended a training program. You mentioned 
that you are creating a training program. If you wanted to 
establish credibility with the stakeholders, probably the very 
best way to do it would be to offer training on what they have 
got now pending, what you are going to have, rather than 
saying, Oh, wait until you see these bells and whistles; then 
we will really train you.
    We think many of them don't know how to proceed on the 
present, old-fashioned system. Would you tell us what you 
expect and how you expect training to be accomplished?
    Mr. Penn. Yes, Madam Chair. A number of solutions are 
available.
    We have just started working with the Emergency Management 
Institute, which is our controlling body that handles our 
training programs internally for emergency management. Within 
that, we have started to build a core structure with a number 
of courses that will be available online for emergency managers 
on the basics of how to work the system.
    Also, as we continue through our program model, we have 
several milestones for when we have to accomplish several 
training goals within that so that we keep the users on a level 
where they understand what kind of equipment we have and what 
they are supposed to do.
    So training is built into our long-term plan. Some will be 
electronic means training that they can access from the 
Internet, but some will be part of our emergency management 
training. Some are courses that already exist, and some are 
courses that we are going to have to add in the future.
    So we already have Federal-level courses for emergency 
managers. Adding parts into that curriculum as part of the 
solution and then adding specific courses for specific tasks is 
also part of the solution.
    Ms. Norton. Well, I am trying to find out how people get 
trained on what you do now and then how you then build up to 
training on what you are putting into effect. So our 
information is that the lapse in communication from Washington 
and help from Washington means many people are pretty rusty 
with the present system. I am concerned about that because it 
is clearly going to take you a few years to get the system up.
    Could you get us, within 30 days, a continuum on training 
beginning with right now?
    Ms. Norton. Now, some people will say, Well, that is one 
thing I know how to do. You can make people be trained, but if 
they know what they don't know by saying, Look, this training 
is a--what do you call it when you have already been trained?
    Mr. Penn. Sustainment training.
    Ms. Norton. Yes, something like that that we recommend for 
even those of you who think you know the system, and then go 
forward from there. That is a way of saying, Look, we care 
about the stakeholders, and one of the reasons you see it is, 
now we are doing this training; even for those of you who are 
most advanced, there are some things that you probably need to 
know.
    I would just like to know what the continuum on training 
is, given the fact that there has been very little training.
    Mr. Penn. Yes, Madam Chair, and that is it exactly.
    The problem is sustainment training. I think we all do a 
good job of initial training when we field a new piece of 
hardware or software. But sustainment training is where you 
make your money, and that is the part we don't do.
    Ms. Norton. We were pleased to hear you talk about tests. 
You plan a working group to test the system.
    For the record, when do you believe the President's EAS 
message will be able to reach the public? What is the end date 
for that, do you think? By that time, you will say it is----
    Mr. Penn. For the record, Madam Chair, the end of fiscal 
year 2010 is when I plan to do a nationwide end-to-end test. 
Part of that depends on the outcome that I have from Alaska, 
that I mentioned. As I said before, that not only gives us the 
information we need to know, if the system is functioning as we 
think it is functioning, but it also gives us the buy-in that 
we need from all of the stakeholders.
    Part of the problem in the past has been that the broadcast 
community was not willing to donate airtime to do a systemwide 
test because, regardless of when it is, that interrupts some 
portion of their programming.
    Ms. Norton. I don't think you will have trouble saying, if 
we do a systemwide test based on your time frame, wherever you 
are--I can tell you, unquestionably, they interrupt right now.
    Would it be a test longer than that, than the one that 
beeps and goes out for, what can only be called a minute or so?
    Mr. Penn. No, Madam Chair, it would not necessarily have to 
be any longer, but it would not necessarily be at the time that 
they chose to do it. We could certainly do it at a time when it 
was not peak broadcasting.
    Ms. Norton. Yes, that is when they try to do a lot of them. 
I can tell you of somebody who has heard them in the dead of 
night here or, shall I say, the dead of morning.
    Mr. Penn. Yes, ma'am.
    Ms. Norton. I just cannot believe that if they thought 
there was a serious effort in Washington, that you alerted 
people that you were going to do this test--we have chosen it 
based on where you are at what tends to be the lowest viewer 
point, if that is what you want--you are not trying to see how 
many people are listening, right?
    It is hard to believe that if, by that time--you go through 
training, you have your advisory groups, and people have 
greater confidence--that you would get much resistance if you 
chose the time based on the time zone in which a particular 
locality is found.
    Mr. Penn. That is my point exactly, Madam Chair. We have 
not given them the confidence in the system to this point so 
that they know that this time is well spent. And that is my 
challenge.
    Ms. Norton. Well, thank you very much, Mr. Goldstein and 
Mr. Penn. We have found this testimony to be very important and 
useful to us in reviving our own confidence that we are 
beginning to get something done.
    Thank you. You are excused.
    Ms. Norton. I am now going to call Panel II. We will hear 
from you just as you are seated.

    TESTIMONY OF RICHARD MUTH, EXECUTIVE DIRECTOR, MARYLAND 
EMERGENCY MANAGEMENT AGENCY, STATE EMERGENCY OPERATIONS CENTER, 
      REISTERSTOWN, MARYLAND; JIM COLETTA, COLLIER COUNTY 
COMMISSIONER, DISTRICT 5, NAPLES, FLORIDA; TOM AXTELL, GENERAL 
      MANAGER, VEGAS PBS, LAS VEGAS, NEVADA; JUAN RAMON, 
REPRESENTATIVE, NATIONAL COUNCIL OF LA RAZA, WASHINGTON, D.C.; 
     AND LISE HAMLIN, DIRECTOR OF PUBLIC POLICY AND STATE 
  DEVELOPMENT, HEARING LOSS ASSOCIATION OF AMERICA, BETHESDA, 
                            MARYLAND

    Ms. Norton. First, Richard Muth, Executive Director, 
Maryland Emergency Management Agency, State Emergency 
Operations Center.
    Mr. Muth. Good afternoon, Chairwoman Norton, Ranking Member 
Diaz-Balart and Members of the Committee; and thank you for 
allowing me to discuss my concerns about the Emergency Alert 
System before your Subcommittee today.
    As you stated, my name is Richard Muth. I am the Director 
of Maryland Emergency Management Agency, and I am also here as 
a member of the National Emergency Management Association.
    Before being appointed to this position by Governor 
O'Malley in June of 2008, I spent 33 years as a first responder 
in Baltimore County, Maryland, including 15 years as the 
county's Emergency Manager and Director of Homeland Security. 
So, today, I bring to you both a State emergency management 
director perspective and also a local emergency manager's.
    My passion for the Emergency Alert System began in 
September of 2003 when the system failed the residents of 
Baltimore County as Tropical Storm Isabel was pounding the mid-
Atlantic region. At approximately 9 p.m. the night of September 
18, as Isabel was pushing water up the Chesapeake Bay, my 
office wrote an emergency alert message, urging residents of 
coastal areas of eastern Baltimore County to evacuate to higher 
ground.
    Unfortunately, the television stations decided not to air 
the broadcast immediately. Instead, they treated it as a press 
release, and ran the information on the 11 o'clock news. For 
some in the affected area, that was too late. By the time they 
were announcing evacuation recommendations on the late news, we 
were scrambling to get boats out to the stranded residents.
    We later learned that the broadcasters did not think it was 
appropriate to interrupt the regular programming to the entire 
Baltimore viewing area for a message affecting only a few 
dozen; but for the residents, it could have been life-or-death 
information.
    Fortunately, none of the residents of that area were killed 
or seriously injured because of the flooding. However, the 
emergency response did make for some anxious moments for the 
residents, and it also risked the lives of the first responders 
who rescued them. Much of that could have been avoided if we 
could have depended on the media to broadcast the alert in a 
timely fashion, allowing people to safely evacuate.
    So, today, more than 6 years later, have things gotten any 
better? In some ways, yes. With technology, in Maryland, we 
have improved the system for distributing EAS messages.
    Back in 2003, the system in Maryland relied on, as you 
heard, what is known as the "daisy chain system"; that is, 
alerts are first aired from larger stations and then carried by 
smaller ones. But if the primary station in that chain chooses 
not to air those messages, those below don't receive them and 
don't air any messages.
    Now, thanks to improved technology, we can notify a much 
larger portion of participating stations immediately, though a 
few still depend on the daisy chain system. Thanks to better 
coordination between my agency and the Maryland D.C. Delaware 
Broadcasters Association, I have more confidence that our State 
and local emergency managers, or my Agency, can get important 
messages out in a timely manner.
    Still, a State or local emergency manager nationally cannot 
depend on local radio and television stations to broadcast an 
emergency alert. That is because stations are not mandated to 
carry such broadcasts, although they would be required to 
broadcast a Presidential alert.
    There may be times that the President would be broadcasting 
lifesaving emergency information. In the global war on terror, 
for example, the President might be the right voice to calmly 
direct people across the Nation to take appropriate action in 
the face of an impending attack.
    But the vast majority of protective order messages are 
going to come from local and State emergency managers to warn 
the residents of impending floods, dam failures, chemical 
spills, and such. Without clear regulations requiring radio and 
television stations to broadcast State and local messages, we 
cannot be assured that the public will get the messages before 
it is too late.
    My written testimony contains a more detailed, technical 
description of the improvements we have made, a look at some of 
the improvements planned for the near future, along with some 
concerns about emerging technology and Federal regulations. But 
briefly here, let me offer several recommendations:
    First, because both the Federal Communications Commission 
and the Federal Emergency Management Agency control various 
aspects of the Emergency Alert System, delays have prevented 
needed regulations from being implemented in a timely manner.
    FEMA must adopt needed regulations, especially in regard to 
mandatory participation by broadcasters. While FEMA seems to be 
working towards enhanced public alerting in general, the 
progress is much too slow. The FCC, meanwhile, seems reluctant 
to allow the new procedures and technology capabilities that 
would make it easier to broadcast the right message to the 
right audience at the right time.
    Second, leadership and coordination issues between FEMA and 
the FCC related to alerting systems must be resolved 
immediately, and the coordination needs to be communicated down 
to the State and local levels.
    Finally, we need funds to help pay for the continued 
operations of various systems, including not just EAS but other 
complementary services, such as various text, cell phone, 
reverse 911, and other existing technologies.
    We are just now learning that the Department of Homeland 
Security and some of the grants we receive from them are now 
being restricted to not be used for a continuation of service, 
which will also hamper the States and their ability to maintain 
these systems.
    Once again, I thank you for allowing me the opportunity to 
appear before you today, and any questions I will be more than 
glad to handle. Thank you.
    Ms. Norton. Thank you very much, Mr. Muth.
    Jim Coletta, Collier County Commissioner, District 5, 
Naples, Florida.
    Mr. Diaz-Balart, you may want to introduce him.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. Thank you for 
this opportunity.
    I am glad to have the commissioner here. I have known the 
commissioner for a number of years, and I can tell you that I 
have personally witnessed--hopefully, what he will be talking 
about a little bit today. But I have witnessed this man go out 
there before the storms and after the storms, going door-to-
door, individually, to try to make sure that people get the 
message. Because, unfortunately, in some areas, there is no 
other way to do it.
    And I have been a personal witness of that. It is a 
privilege to have him here. It is a pleasure to represent 
Collier County, but particularly when you have public servants 
like Commissioner Coletta and his colleagues in the commission.
    I will mention that the Director of Emergency Management 
for Collier County is also here, accompanying him--a great 
professional.
    There is a reason why Florida does the best job in the 
country, and it is because of individuals, as you well know, 
and leadership. And so it is great to have one of those 
individuals who shows great leadership and great caring here 
with us today.
    Thank you, Madam Chairwoman.
    Ms. Norton. Thank you, Mr. Diaz-Balart.
    Mr. Coletta, with that kind of introduction, we expect 
great things of you and your testimony.
    Mr. Coletta. I appreciate the kind words. I truly do.
    Madam Chair and Members of this Subcommittee, good 
afternoon. My name is Jim Coletta, and I am an elected County 
Commissioner of District 5 of Collier County in southwest 
Florida. Naples is the county seat. However, I represent a 
district that covers a land area equal in size to Delaware; it 
includes the Big Cypress National Preserve and parts of 
Everglades National Park.
    One community in my district is Immokalee, which has a 
population of approximately 20,000 people. The 2000 Census 
identified 71 percent of the population in Immokalee to be 
Latino, and I believe that that number has grown over the past 
decade. The per capita income is only $8,576, and 40 percent of 
the population lives below the poverty line.
    Immokalee remains the center of the region's agricultural 
industry. The farms of Immokalee produce a significant portion 
of the Nation's produce and employ thousands of seasonal, or 
migrant, workers.
    I am here today to share with you my firsthand experience 
about the need for an improved public alert and warning system 
that can notify our citizens of a pending disaster.
    In the early morning hours of October 24, 2005, Hurricane 
Wilma, a Category 3 storm with winds of 120 miles an hour, made 
landfall in Collier County, the first hurricane to directly 
strike our community in 45 years. Thousands of county residents 
were impacted. Property damage was estimated to be in excess of 
$1.2 billion and, sadly, several deaths were attributed to the 
storm.
    While coastal Collier County was able to recover from Wilma 
in a relatively short period of time, thanks in part to good 
building codes that are strictly enforced, Immokalee, with its 
older homes and trailers that predated our building codes, took 
a major hit. That resulted in hardship for those residents. It 
was only by good planning by our emergency management team, led 
by Mr. Dan Summers, who has joined me here today, dedicated and 
hardworking government employees and the self-reliance of our 
citizens that recovery was achieved in a relatively short time.
    In the days and hours leading up to the storm, we found 
ourselves faced with the enormous challenge of trying to 
communicate to the residents of Immokalee the need to evacuate 
or seek shelter or take other protective measures, a problem 
that was compounded by the fact that it was harvest time, 
meaning that thousands of additional migrant laborers were in 
the community.
    The majority of the housing in Immokalee consisted of old 
trailers. It was evident that many of these trailers would not 
survive a major wind event, and these structures needed to be 
vacated, and the residents needed to be moved to public 
shelters at our local schools.
    The local media outlets were focused only on coastal 
Collier County where the bulk of the population lives, and on 
neighboring Lee and Charlotte Counties, with little information 
being provided to the residents of Immokalee, despite the best 
efforts of our emergency management office.
    There also existed at the time a weak communication 
structure between the commercial farms and local emergency 
management officials. The challenge became even more evident 
when commercial growers wanted to get in an additional day's 
harvest prior to the landfall of storm-force winds, which was 
deemed to be too risky based upon the timing variables of the 
storm.
    Of course, our biggest challenge was the language barrier. 
Only one Spanish language radio station serves Immokalee, along 
with one weekly newspaper. The Spanish radio station was 
abandoned by its staff and was off the air the day leading up 
to the event. In an effort to reach out to the Immokalee 
residents, I enlisted the help of Spanish-speaking and Creole-
speaking county employees and volunteers from the Coalition of 
Immokalee Workers and officers from the sheriff's department. 
We took to the streets of Immokalee, going door-to-door, 
encouraging people to go to the public shelters before the 
storm arrived.
    I also wanted to persuade them not to work in the fields 
until dark, as usual, the day before the storm. Otherwise, they 
would miss the free bus transportation the county was providing 
to take them to the shelters, or they might find themselves 
arriving at the shelters, filled to capacity, during the storm 
event.
    It was very clear to me that the farm workers I encountered 
that day were unaware of the dangers facing them as the storm 
approached and were prepared to go to work in the fields. They 
had not understood the radio and TV weather forecast reports in 
English only. As I knocked on the doors with the interpreter at 
my side, I was utterly amazed to find that most people did not 
know a major hurricane was coming and did not know that their 
lives were in danger. Remember, this was less than 12 hours 
before the hurricane made landfall.
    Some workers ended up staying in the field until dark, but 
we were able to convince the sheriff's office to keep the buses 
running to take the workers to available shelters, and 
fortunately, most people who wanted to get to a shelter managed 
to do so.
    The damage to Immokalee from Hurricane Wilma was enormous. 
The lessons learned from our Hurricane Wilma experience is that 
there has to be a better way to communicate emergency 
information to non-English-speaking communities.
    Our emergency management program has launched a number of 
initiatives to better serve the very unique challenge in the 
Immokalee area. One that seems very promising is called the 
Immokalee Recovery Coordination Group. It is a multiagency 
working group made up of the government agency's social service 
entities and faith-based organizations that represent the 
diverse language and culture of the Immokalee community. When 
activated, they are responding to and coordinating recovery 
efforts.
    We are also publishing and distributing Spanish-language 
storm preparation guides, storm-preparedness CDs in Spanish and 
Creole, and have door-hanger emergency information available. 
We are utilizing churches and civic groups to communicate 
disaster outreach messages, and are developing plans to enhance 
public transportation resources.
    We are very experienced in southwest Florida in preparing 
for hurricanes. During 2004 and 2005, in addition to Wilma, we 
were also threatened by Hurricanes Charley, Frances, Ivan, 
Jeanne, Dennis, Katrina, and Rita. I believe we have learned 
that all disasters are local and that no two disasters are the 
same for any community.
    Rural farm communities which enjoy a rural lifestyle face 
many challenges as it relates to communication and 
coordination. Ever since Hurricane Wilma impacted my district 
in 2005, we have witnessed the continued explosion of new 
technology that enables us to communicate with each other from 
virtually any place at any time. It would seem reasonable to 
expect government to be able to harness this technology in a 
way that can help people during times of crisis, especially 
those who have traditionally not been connected to so-called 
mainstream communication channels.
    In closing, I would be remiss if I did not recognize Mr. 
Craig Fugate, the new FEMA Administrator. As you know, Craig 
served as the Director of the Florida Division of Emergency 
Management under two governors, and did an outstanding job 
guiding the State's preparedness and recovery efforts during 
the hurricanes, wildfires and other emergencies. I am certain 
he will do an excellent job for FEMA.
    Craig understands the critical need to communicate with 
citizens who may be in harm's way, and we would certainly be 
grateful for any assistance that can be provided by our Federal 
Government to assist us in protecting lives and property during 
emergencies.
    Thank you. I would be glad top entertain any questions that 
you may have.
    Ms. Norton. Thank you, Mr. Coletta.
    The next witness is Tom Axtell, General Manager of Vegas 
PBS, Las Vegas, Nevada.
    Mr. Axtell. Thank you, Madam Chairwoman and Mr. Ranking 
Member, for inviting me to testify today and for having both 
the interest and quite a bit of passion on this subject. I am 
Tom Axtell, the General Manager of Vegas PBS.
    Mr. Diaz-Balart. If I may, we have a problem with the 
microphone. It looks like it is the same technology that we 
have.
    Mr. Axtell. This is the problem for broadcasters.
    Well, I am Tom Axtell, the General Manager of Vegas PBS, 
and we run 100 percent of all of the NOAA announcements, AMBER 
Alerts, dust alerts, and other messages from our health 
department and other sources.
    Today, I am representing the Association of Public 
Television Stations and more than 360 public television 
stations across the Nation. I also have good experience in this 
area as a person who was downwind after Mount St. Helens 
erupted, and saw the role, both the good and the bad, 
broadcasters play in these situations.
    Mr. Axtell. [Continuing.] When public television stations 
made their investment in digital transition equipment in the 
late 1990s, we quickly realized the significant advantages that 
digital technology could offer to education, public health, and 
public safety. Digital television's bandwidth can be 
partitioned into multiple, simultaneous, wireless content 
streams, creating a system that can serve the public in many 
different ways at the same time.
    One of these ways is sending data that contains emergency 
information, training videos, maps or blueprints to enhance 
public safety. Public television's congestion-free digital 
bandwidth is able to simultaneously support public alert and 
warning systems as well as encrypted networks to enable public 
safety and emergency management agencies to transmit vital 
information securely to personal computers, computers in 
police, fire, or ambulance vehicles, or computers connected to 
local area networks.
    In Las Vegas, this is done through the use of a small 
digital television receiver that we had manufactured and have 
installed in over 160 locations. This receiver was purchased 
and installed per vehicle for less than $300.
    When public television approached the Department of 
Homeland Security with a proposal developed in part by tests 
originating at our station in 2002, the Digital Emergency Alert 
System was born through a cooperative interagency agreement. 
Deployed nationally as a part of the original DHS FEMA IPAWS 
plan, the infrastructure provides for a digital Presidential 
emergency alert and warning system to supplement the current 
broadcasters' EAS. It also serves as the foundation that can 
facilitate governor and local authorities' use of DEAS for 
State and local emergencies.
    At Vegas PBS, we worked with this system by securing grants 
to build out the DEAS technology to deal with the school 
emergencies, earthquakes, and other threats. We have 
blueprints, hazardous material locations, utility connections, 
and other information on over 400 public buildings residing on 
a data server in our facility. In a school emergency, we can 
send first responders vital medical information on medically 
fragile students, complete blueprints, authorize parent or 
guardian information to reunification centers, and other data. 
We also have fiber links to the State's emergency data center 
with similar information on over 2,500 critical infrastructure 
sites they have identified and catalogued.
    Other local public television stations in the communities 
we serve across the country can replicate the successes we have 
had in Las Vegas with this system with appropriate assistance 
from Congress. I would like to offer two recommendations on 
behalf of public television that can enhance the national alert 
and warning system as well as public television's local 
emergency response capabilities in this area.
    First, a renewed focus on IPAWS by Congress, which you have 
so ably demonstrated today, is essential to ensure the quality 
and reliability of Federal alert and warning systems. The 
legislation introduced by the Chairwoman and Ranking Member in 
H.R. 2591 takes the right approach. We greatly appreciate being 
included in the IPAWS Modernization Advisory Committee as 
public television believes it can offer a unique perspective on 
these issues.
    Second, the WARN Act made funding available to stations to 
provide the equipment necessary to send geotargeted messaging 
and to allow for better bandwidth allocation management. This 
will enhance stations' ability to create local alert and 
warning systems. However, those funds are currently being held 
at NTIA, awaiting coordination with FEMA. We urge this 
Committee to request that FEMA work with NTIA to expedite the 
release of these funds in order to enhance the buildout of 
DEAS.
    Tomorrow will be the third anniversary when the bill 
authorizing the release of these funds was signed by the 
President. This week's headlines have featured fearful stories 
of people who were allegedly acquiring chemicals for potential 
subway bombings. It is clear to me that alert and warning 
cannot be put on hold or delayed.
    Again, thank you for inviting me today to describe public 
television's alert and warning capabilities. I look forward to 
answering any of your questions.
    Ms. Norton. Thank you, Mr. Axtell.
    The next witness, Juan Ramon, Representative of NFIB, which 
is a grassroots organization devoted to migrant workers. We 
have with him a translator. What is your name, sir?
    Mr. Wesley. Good afternoon, Representative. My name is 
Carlos Wesley.
    Ms. Norton. Thank you, sir. If you would be kind enough to 
translate, we would appreciate it.
    [The following testimony was delivered through an 
interpreter.]
    Mr. Ramon. Good afternoon. My name is Juan Ramon, and I am 
a community leader with the Binational Front of Indigenous 
Organizations, or FIOB.
    I have worked with the indigenous community in California 
for 10 years. I myself come from an indigenous community in 
Oaxaca, Mexico. FIOB provides support to indigenous farm 
workers who come from Mexico and Central America. We help them 
meet their basic needs and we educate them about their rights.
    I want to thank Representatives Eleanor Holmes Norton and 
Mario Diaz-Balart for inviting me.
    In my testimony, I will talk a little about the experiences 
of the farm workers during the 2007 wildfires in San Diego, and 
I will also offer some recommendations.
    I would like to begin by giving you a brief idea about the 
farm workers in San Diego. They come from southern Mexico 
seeking agricultural work. They sleep under plastic tents in 
the mountains of San Diego without electricity or running 
water. They live in the hills because they can't afford to pay 
rent. Their biggest barrier is language since they only speak 
indigenous languages.
    The October 2007 wildfires posed a great danger to San 
Diego. The fires threatened the areas where the farm workers 
live and work. We knew we had to physically go where they were. 
The workers already know us and they trust us because we speak 
their languages. In the places where they live, it is hard to 
get news from TV or radio; their only means of communication 
are cell phones, but sometimes those do not work because their 
phone cards run out or they have been unable to charge their 
phones. That is why we always have to be with them.
    When we got to the field, we asked people to leave. The 
fire was a mile away from the field and the air was filled with 
smoke. I spoke to them in Mixteco. I told them the fire was 
dangerous and that they should protect their lives and their 
health, and that we have found shelters for them. We were there 
for about 12 hours to ensure that if the fire changed 
direction, the farm workers would have a means of escape. Some 
were willing to go to the shelter, others did not. Ten of them 
did not come with us because they were afraid of losing their 
jobs or fear of immigration authorities. We advised them not to 
return to their homes because the fires were too close. They 
decided to sleep under the tomato plants.
    We were very concerned about the safety of the farm workers 
who were going to spend the night. We brought them sleeping 
bags and prepaid telephone cards, $5 worth. The next day, we 
returned at 6 a.m. To check on the farm workers, and we were 
there with them from 6 a.m. To 6 p.m. For a whole week. Most of 
the time it was only my organization that was communicating 
with the farm workers.
    We saw one of the bosses from the ranch, a fire chief, and 
people from the Mexican Consulate. The consulate tried to 
advise them to leave. The fire chief did not talk to the farm 
workers.
    Many farm workers experienced itchy throats and watery 
eyes. I took them to a clinic where they were given free 
medical treatment. Fortunately, none of the farm workers was 
seriously injured.
    We learned from this experience how to better prepare 
ourselves for the future. There are some recommendations I wish 
to offer to the Committee regarding how to improve 
communications with indigenous communities and with other 
difficult to communicate groups.
    First, local governments should partner with community 
organizations. We already know how to communicate with our 
people and to make sure that the emergency message gets to 
them. During an emergency, we can inform the local government 
about what is happening, and we can also transmit messages from 
the government to our communities.
    Two, help the community to organize itself. We want to 
organize groups and leaders. During an emergency, each leader 
will be responsible for their group.
    Three, support natural disaster preparedness education as 
to what to do and where to go. Use photos and videos to help 
the understanding of those who do not read or write.
    Four, local governments make a small investment in 
organizations such as ours so we can help the government to 
help save lives.
    Cell phones were used during the 2007 wildfires, but that 
was not enough. Text messages are a big step forward and could 
help in communicating with people who speak languages other 
than Mixteco.
    We recommend that the Committee pursue other options. Six, 
one such other option could be to use radio, television. We can 
reach many indigenous people through radio and TV programs. For 
example, we could alert them to the H1N1 epidemic. These 
proposals will help improve the emergency alert system for all 
communities.
    This is all. You already have a copy of my testimony, and 
it includes more detail, so you can read it. Many thanks.
    Ms. Norton. Thank you, Mr. Ramon.
    Finally, Lise Hamlin, Director of Public Policy and State 
Development, Hearing Loss Association of America.
    Ms. Hamlin. Madam Chairwoman, Ranking Member Diaz-Balart, 
thank you for this opportunity to appear before you today and 
provide testimony on behalf of Hearing Loss Association of 
America and approximately 37 million Americans with some kind 
of hearing loss.
    I am Lise Hamlin. I amthe Director of Public Policy and 
State Development for Hearing Loss Association.
    I have a significant hearing loss myself and have 
experienced emergency alerting issues from a very personal 
perspective. I would also like to thank the Committee for 
providing the captions that are appearing here. It has helped 
me participate in this hearing, too.
    Now, as part of my job, I have delivered presentations 
around the country about emergency preparedness for people with 
hearing loss. Over and over, I have heard stories about 
emergency situations that were more difficult, more 
frightening, even life-threatening because of communication 
difficulties during emergencies. And I have been there.
    On September 11, 2001, I was in my office in Manhattan when 
the World Trade Center was hit. My coworkers' first reaction 
was to turn on the television; when we did, we found the news 
was not captions. Now, for me, it wasn't as much of a problem 
because my coworkers interpreted for me. But for people who had 
no access to captions who were alone, it meant being isolated 
at a very scary time.
    Then I moved to the D.C. area around 2002, just before the 
sniper attacks. Now, when television programming was 
interrupted with breaking news about the shootings at gas 
stations or in malls or near schools, people with hearing loss 
were left behind. Now, those stories that were not captioned, 
they told us, because they were not obligated to because EAS 
had not been triggered. I guess what that means is that people 
with hearing loss don't deserve to have access to the same 
information at the same time as everyone else.
    So when I am asked, will EAS deliver the President's 
message to people with hearing loss, I wish I could give you a 
confident yes, but if a major disaster happened tomorrow, I 
cannot say with certainty that people with hearing loss will 
have received the message in an accessible way.
    Just this month, a woman from Kansas City, Missouri wrote 
me saying, Recently, the weather sirens went off, and the local 
station I was watching interrupted the news to report the 
storm, but without captions. I was left not knowing just what 
was happening, and I ended up calling the police to find out. I 
may be old, but I am still interested in the local news, and I 
also feel very unsafe in a bad storm. Now, when I asked that 
woman if I could use her story, she said yes, but don't bother 
about the name; I am not looking for fame, I just need help 
being able to keep up with the world. And that is all this 
community wants; we want to be able to keep up with the world 
just like everyone else.
    Now, we know technology has changed dramatically since 9/
11, and people who are hard of hearing or deaf have embraced 
this new technology eagerly. We use text messaging to a greater 
degree than most people, except perhaps teenagers; they may 
have us beat. But we need to exploit this new technology. We 
need emergency messages that reach each and every mobile device 
directly. We need e-mails and Internet messages that be can 
accessed instantly. We need research on what makes these 
emergency messages understandable. We need video emergency 
messages that are posted online with open captions in addition 
to sign language versions for those who need that.
    We need our States and local communities to have the 
capacity and policy in place to caption their streamed videos 
just as we need the national messaging system to support that. 
And we need broadcasters who post videos online to caption 
those videos. And if it is an official who is talking with a 
sign language interpreter right next to them, why can't we get 
an angle that shows them both so people who need both can get 
that? That just makes sense.
    We also need to think about redundancy just as emergency 
managers will tell us. When the power goes out, many people can 
turn to portable televisions or their radios, but for people 
with hearing loss, that won't work. There is no requirement for 
captioning on televisions smaller than 13 inches, so we have no 
access to portable television and no access to radio. We need 
to change the rules so that smaller televisions and smaller 
devices altogether will be able to be captioned. And we need to 
support projects like the National Public Radio's project to 
make captioned radio a reality.
    We also need to support all the recommendations coming out 
of the National Center for Accessible Media at WGBH on the 
access to emergency alerts. And there has been research coming 
out of Gallaudet's RERC that has also been very valuable to 
help us get the access alerts we need, as well as through 
NIDRR, the National Institute on Disability and Rehabilitation 
Research.
    At a time when there is so much in the way of new research, 
new technology that offers hope to people with hearing loss, we 
find that we are frustrated that these new technologies are not 
being exploited in the way they could be. People with hearing 
loss find their needs are often forgotten or remembered after 
the fact. We need for that to change. We need to be included 
right from the start.
    Hearing Loss Association stands ready to work with you to 
provide information and resources as well as to get the word 
out to consumers. We have a list of recommendations, which, for 
the sake of time, I will let you see in the written testimony. 
But we thank you for this opportunity to provide our testimony, 
and we urge you to take the steps necessary to ensure people 
with hearing loss get all the information they need when they 
need it.
    Thank you.
    Ms. Norton. Thank you, Ms. Hamlin.
    Let us move on to questions. As a courtesy, I will ask Mr. 
Diaz-Balart if he wants to proceed first.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    Let me thank all of you for your testimony.
    I have really just one question--and I asked the same 
question of the GAO, I will ask in different words. In your 
opinion--and I think, Mr. Axtell, you already mentioned it, but 
do you think that time is of the essence to move forward? And 
do you think that this legislation would be a positive step? 
And how much of a positive step in dealing with some of these 
issues?
    And whoever wants to deal with that, all of you, however 
the Chairwoman would like to deal with that. And that is all I 
would have at this stage.
    Mr. Coletta. Congressman, if I may go first. Once again, 
thank you very much for the opportunity to be here today.
    Anything that you can enter into this mix to be able to get 
more information out to the public in a timely fashion would be 
extremely welcome. I don't think there is ever such a thing as 
too much redundant information going out at a time of 
emergency.
    I would welcome any opportunities. If you can possibly move 
this bill forward this year, beautiful; if you can't, we will 
support you next year, whatever it takes.
    Ms. Norton. Any of the rest of you have anything to add to 
that answer?
    Mr. Axtell. We would strongly support public television 
advancement of this bill, and also the expenditure of funds 
from the WARN Act that have already been authorized. I think 
that will greatly strengthen the system.
    I would like to just point out, technology is going to keep 
changing. We are now, in Las Vegas, building on a new 4G 
network. IPAWS shouldn't wait for the 4G network or the next 
computer card or the next thing. We need a system that we can 
deploy today for the next hurricane or earthquake or whatever 
the disaster is. And then as these new things come along, if 
they are CAP compliant and so on, we will be able to wire them 
into a system of systems.
    Mr. Diaz-Balart. On the issue of the WARN Act, both the 
Chairwoman and I took note of that, so we will be working on 
that. Thank you.
    Ms. Norton. Thank you very much, Mr. Diaz-Balart.
    I tore out the testimony of Mr. Muth where--we are pretty 
close to where you are, sir, as kind of a classic example where 
the stations decided not to air--apparently didn't have to--the 
storm Isabel message. They didn't want to interrupt their 
broadcast for the entire Baltimore County and area. And you can 
understand they are afraid somebody will switch from 24 to 
something else by the technology they don't even have. They 
argued that it only would affect a few dozen homes or so.
    Do you think that the Integrated Public Alert and Warning 
System, as it is called, as it is being built out, would take 
care of that problem? What would you have the Federal 
Government do otherwise with respect to an emergency that is 
confined to an area and with respect to what the broadcasters 
should be required to do?
    Mr. Muth. Yes, ma'am. First of all, I am not familiar with 
IPAWS. I have very little, if any, knowledge of the system at 
all. We haven't been too engaged in the process. But regarding 
the problem we had in 2003 with----
    Ms. Norton. Wait a minute. You are not familiar with IPAWS 
at all?
    Mr. Muth. No, ma'am.
    Ms. Norton. No one has ever contacted you to bring you into 
the system?
    Mr. Muth. No, ma'am. Not me personally, anyway.
    Ms. Norton. Or your agency, the Maryland Emergency 
Management?
    Mr. Muth. I was asking that question the other day 
preparing for this. They have been involved with two conference 
calls, but that has been about it. That has been the total 
engagement.
    Ms. Norton. This is one of the reasons we are having this 
hearing today. If you don't have the buy-in of an emergency 
management system located on the cusp of one of the 
centerpieces of the target, then you have lost the confidence 
of all of us. We are aware of how advanced your own system is, 
so it is important to get on the record.
    Go ahead, sir.
    Mr. Muth. Yes, ma'am. So I think our problem in 2003--and I 
would have the same concerns today--is, once again, that the 
broadcasters are not mandated to send anything out that is from 
the State or the local jurisdictions since, as was said 
earlier, there has never been a Presidential declaration on 
using the EAS system. They have always been used at the State 
or local level. Without that mandate, it leaves us hanging in 
never really knowing for sure whether these messages are 
reaching the public or not.
    Ms. Norton. Well, wait a minute. Now, the broadcasters--
that is why I am asking you what should the Federal Government 
do. The broadcasters are obviously mandated to do what is very, 
very, very, very, very--and put a lot of verys out there--rare. 
And so what is it that you think the Federal Government should 
mandate with respect to such territorial or area matters?
    Mr. Muth. From my perspective, both from local and State, I 
would still say that the FCC needs to mandate that the licensed 
broadcasters have no option, that if the message is alerted 
from a public official----
    Ms. Norton. Because we are talking about a message of how 
long? Let's be clear.
    Mr. Muth. Thirty seconds.
    Ms. Norton. Is that too much to ask, is all I can say, if 
it were to save one life or one injury? Why, in a country where 
we are supposed to care somewhat for our neighbor, would that 
be too much to ask? So that is important.
    Is there anyone who disagrees with that? Do you think that 
even though it may be confined to an area within an area within 
an area, do you think it is too much to ask 30 seconds for 
everybody? Now, the reason I say everybody is because if it is 
not everybody, somebody is going to try to get the run-on of 
somebody who is taking 30 seconds out from his broadcast in 
order to hope that it will use that remote. So do you think it 
has to be a universal requirement in order to be effective?
    Mr. Muth. Yes, ma'am. With the present technology, I 
certainly do because it is the only tool we have. We can't do 
immediate notifications without such a tool.
    Ms. Norton. And there is no way to geotarget a national 
system like that.
    Yes, Mr. Axtell.
    Mr. Axtell. Well, I am not sure I should speak on behalf of 
all the broadcasters in the entire country, but I can certainly 
say on behalf of our station and I think most public 
broadcasters that we take these alerts very seriously. In the 
State of Nevada, we were concerned that many, many, many people 
at a whole level of decisions would want to access broadcasting 
for messages that may seem important to them, but in the scope 
of things, may or may not be. And so our State has a policy 
where the State police can initiate an initiative so there is 
some secondary look at the scale and scope of the issue. So we 
get Presidential alerts, we get local alerts. And we have made 
the decision locally that if our health department says that 
after a forest fire in Los Angeles comes in and threaten people 
with asthma or other lung problems, we will run those alerts as 
well.
    So I don't really have a problem with alerts from bona fide 
people who have perspective being mandatory--although I am not 
speaking for the industry per se. It is just philosophically I 
agree with you.
    Ms. Norton. I can understand how those in the immediate 
area might be required to issue an alert with greater 
frequency. But for one of us to get a zap to let us know that 
there is a very serious event occurring in our country. I mean, 
I wanted to know that American Samoa--I don't think I will ever 
go there, it is very far away, but one-time alert to the 
Continental United States, if everybody has got that alert, I 
don't see the argument. And I am open to it if anyone does for 
not taking 30 seconds to issue an alert. Why wouldn't they, if 
anything, instill confidence that if you get in trouble there 
is going to be a similar alert, and therefore the system works?
    Mr. Muth. Yes, ma'am. And I would like to counter Mr. 
Axtell only in that I certainly appreciate the concerns of the 
broadcasters. What I can't agree to is that I, as the emergency 
manager for the State of Maryland, as appointed by the 
Governor, would be second-guessed by anybody as to the issuance 
of a message that I think that goes out. And the same as a 
local emergency manager; if that person deems this message is 
important enough, then it should be pushed. It shouldn't be 
thought about as to somebody else who is not in that position 
to make that call makes those decisions.
    Ms. Norton. Because this was in your local area.
    Mr. Muth. Yes, ma'am, it was in my county.
    Ms. Norton. So it is hard to understand the justification 
in the affected area.
    Mr. Muth. And they can't isolate that. And I will be the 
first to say that, they can't isolate it just to the 20 square 
miles that we had impacted by the storm, and I certainly 
understand that.
    Ms. Norton. Because they broadcast to how many square 
miles?
    Mr. Muth. Many. These are major stations, so I am sure they 
handle a large part of the State.
    Ms. Norton. Mr. Coletta.
    Mr. Coletta. Yes, thank you again.
    If I may, I have had a little bit of experience with 
emergency management. I got involved well before I was a 
commissioner with a local emergency management director that 
came up with a couple of programs that I helped develop with 
him. I went for FEMA training two different summers in 
Emmitsburg, Maryland. I can tell you, for the most part, local 
control is the essence. If we wait for anything to come down 
from upstairs, State or Federal, it is going to be too late to 
react. We need to have clear channels to be able to work 
across. We need to be able to work on a local level. We know 
what the people need. But the problem is you don't always have 
the mechanism to be able to reach out when you need to. So it 
is not so much who the communicators are, we know who they 
should be, they should be local people sitting on top of the 
situation. The problem is, is how do you get the communications 
out to all the different medians that are out there? What 
Federal requirements can be put out there to make this possible 
in a meaningful way?
    Ms. Norton. Well, but you see there seems to be agreement 
that at least the 30-second warning should be on there. Now, 
Mr. Muth, you want that mandated, but at the same time you say 
in your testimony it is vital that States are allowed to manage 
their own EAS requirements. Well, what was the State of 
Maryland's requirement? And did it have a requirement that the 
county carry this life and death message for at least some 
residents of the county?
    Mr. Muth. We internally, ma'am, have the procedures and 
processes, but once again, we don't own the TV stations or 
radio stations, so once it got to them they chose not to push 
it. There is nothing we can do about that.
    Ms. Norton. That is where the Federal matter comes in. We 
don't own them, but we regulate them.
    Mr. Muth. You license them.
    Ms. Norton. And as long as the Federal Government doesn't 
say you have to carry it----
    Mr. Muth. They are going to decide whether they want to or 
not.
    Ms. Norton. And they will be the first one out there after 
the damage occurs. They will be on the ground saying you poor 
thing, and send some stuff to all of you people, but not to 
warn them in the first place.
    Mr. Muth. Yes, ma'am.
    Ms. Norton. So we will be working very closely with the FCC 
to make sure this coordination takes place.
    Mr. Axtell. Madam Chairwoman, I would like to also point 
out that the WARN Act provided for geotargeting emergency 
messages, and that is exactly the complaint that you say the 
Maryland broadcasters were concerned about. So in our case, we 
have a broadcast and translator network that is about 380 miles 
north to south. We currently run emergency messages for snow 
emergencies in one of our counties even when it is 80 degrees 
in Las Vegas. We just do that because we carry every emergency 
message that we are asked to carry. But if we had geotargeting, 
we would just carry it in White Pine County, or a county like 
that, and not disrupt the viewing in Las Vegas. That is part of 
what the WARN Act permitted, and I think that would vastly 
increase voluntary compliance. But I am not arguing that you 
shouldn't have mandatory compliance for bona fide emergency 
messages.
    Ms. Norton. It was very concerning to me to hear your 
testimony, Mr. Coletta, and Mr. Ramon's testimony. I would like 
to understand, first of all, what percentage or portion of the 
population of the State of Florida is Spanish-speaking at this 
point?
    Mr. Coletta. I am sorry, Madam Chairman, but I really can't 
answer that question. I know in Collier County it is about 24 
percent that speaks Spanish. That doesn't mean Spanish is their 
only language, it means it is their main language.
    Ms. Norton. You heard some promising testimony about a 
national test finally getting a test where we could have data 
and it would be written down so it could be checked, et cetera. 
If we were to do a test and it did not include ways to reach 
people such as those Ms. Hamlin testified about, people with 
special disabilities, did not reach people who speak a 
different language, could that be considered a test of a 
national system?
    Mr. Coletta. It could be.
    Ms. Norton. I am talking about the national-level exercise 
that we are working our way up to. Suppose you did a national-
level exercise in English for people who have no special 
disabilities, what would that mean? Would that be an exercise? 
I think that is the way they do it now.
    Mr. Coletta. How you reach them is going to have to be one 
heck of a clever way, possibly through their cell phone. As far 
as reaching the people who speak a minority language, that was 
the big difficulty, and that is what drew me to Immokalee 
rather than going to other areas in Collier County that were 
being well served by the media at the time. I knew there was 
going to be a lack of communications there. How you reach them, 
in our case, was door to door because there was no other way 
available to be able to reach them.
    Ms. Norton. But have you had a real test since then----
    Mr. Coletta. No.
    Ms. Norton. When I say a real test, you have almost 
constant storms of one kind of another. Since, was it Isabel?
    Mr. Coletta. To be honest with you, since then they were 
fairly minor storms that didn't require----
    Ms. Norton. Well, you have begun to have relations with 
organizations like Mr. Ramon's, so would you have to go door to 
door next month----
    Mr. Coletta. Yes, ma'am.
    Ms. Norton. --to reach people who speak Spanish as their 
first language?
    Mr. Coletta. Yes. If I may, we put together a mechanism in 
place so that I personally don't have to mobilize a large 
number of people.
    Ms. Norton. But you have some people who would mobilize?
    Mr. Coletta. I mobilize them in a manner of like an 8-hour 
period.
    Ms. Norton. But we still don't have any way to communicate 
through IPAWS, or through even the kind of system that Mr. 
Axtell is talking about. You have to have people on the ground 
in the storm to reach the people who would be 
disproportionately affected precisely because of their language 
or because of their disability?
    Mr. Coletta. The only thing that we have going for us other 
than door to door is a low-intensity FM station that the 
Coalition of Migrant Workers has. It is an organization. It is 
a low-intensity station that they reach a certain number of the 
population out there. We can run emergency warnings through 
there. The only problem is that they don't reach everyone. It 
is a limited clientele that they are reaching.
    At the last storm it was in place. The first thing it did, 
the antenna blew down and then the power went out. I got them a 
generator from emergency management, and they ran out of the 
tank of gas that came with it. No gas was available in the 
area, so I got a local marina to give them gasoline to get them 
back on the air.
    But, once again, this was a local initiative. Other than 
that radio station that was willing to stay there, the regular 
radio station, the commercial radio station abandoned their 
post at the time of the storm before the storm even got there.
    Ms. Norton. Suppose Mr. Ramon and people like him had cell 
phone devices or other similar devices, could the State, 
instead of sending out professional personnel who may not be 
close to the particular area, could the State deputize people 
in grassroots organizations, by supplying them with devices so 
that they who may be in the fields, who may be in the trailers, 
who, when trained, could indeed go out and do the job? And 
would Mr. Ramon and organizations like his be willing to take 
on that function if trained and if given the devices to inform 
them while we are getting a whole new system up?
    Mr. Coletta. Madam Chair, you are right on target. What I 
can tell you is that, other than 4 years ago when I was dealing 
with a situation, today just about every migrant laborer has a 
cell phone.
    Ms. Norton. They are already equipped, if we just have 
people who follow through.
    Mr. Coletta. We need to be able to have some system to be 
able to reach out to them. They have a reverse calling system, 
the sheriff department does in Collier County. The only problem 
is it won't reach cell phones.
    Ms. Norton. So what good is it? Everybody has a cell phone.
    Mr. Coletta. It is good for a lot of reasons, but not for 
something like this.
    Ms. Norton. Well, you could equip Mr. Ramon and people like 
him with whatever is required, just like people walk around 
with walkie-talkies these days still.
    Mr. Coletta. That would work, yes. But cell phones are 
something you carry as part of your person; a walkie-talkie, 
you are not going to carry it around. You are not going to 
carry a small AM/FM radio.
    Ms. Norton. What did you say the problem was with cell 
phones?
    Mr. Coletta. The problem was is that the technology, as we 
understand it at this point in time, makes it very difficult. A 
lot of these track phones are not quite the high-tech phones 
that a lot of us own today that we can instant message each 
other.
    Ms. Norton. That is why I am looking--understanding that I 
am looking for what happens between now and the time IPAWS 2, 3 
or 4, whatever you want to call it, gets up because we haven't 
gone beyond one, to tell you the honest to goodness truth.
    Mr. Coletta. Madam Chair, I think you found your mission in 
life.
    Ms. Norton. Well, Mr. Ramon needs, and his folks, in the 
interim, need an interim strategy. And we need to advise FEMA 
what to do while they are getting it up, particularly in Mr. 
Diaz-Balart's State. What did he say, 2010, or whenever. We 
have got to know what Mr. Ramon can do or people like him can 
do who are on the ground now other than you go out there 
yourselves----
    Mr. Coletta. One of the first things, if I may suggest, 
Madam Chairman, is that I would allow Mr. Ramon and some 
members of his community attend the training sessions that FEMA 
offers in Emmitsburg. That would be a tremendous start.
    Ms. Norton. Now, Mr. Ramon, has anyone in your organization 
or in any local organization concerned with migrant workers or 
Latino workers ever been invited to attend any session that 
would train you on how to contact people in your community 
about a coming disaster?
    Mr. Ramon. No.
    Ms. Norton. Would you be willing to act on behalf of 
emergency management officials if you were equipped to do that 
contact work, people on the ground, people like yourselves, 
people in the organization?
    Mr. Ramon. Of course, yes.
    Ms. Norton. I don't know how to do these things sitting 
here trying to think of commonsense ways to fill the gap. It 
will not be acceptable to say, `well, they knew we were 
working.' Well, whoever sends the storms doesn't care, so it 
does seem to me imperative. I am going to ask staff to contact 
FEMA because I did not ask FEMA what you are going to do in the 
meantime. As far as I am concerned, Katrina is in the meantime. 
And the notion of the Federal Government saying, `well, my 
Lord, we were 30 percent of the way through, what do you expect 
of us?' We expect you to have, and staff, what I want to know 
is, in the absence of any way to communicate to Mr. Ramon and 
his fellow members of his organization, even as we heard how 
well they are doing with plans to get up, we need to know what 
to do until then. Makeshift as this may sound, that is how we 
have done it in this country all along. What do you think they 
did 100 years ago? You carried the word, you did what you 
could. I don't know what to tell you, but if they are reaching 
out, as they claim--reaching out means not only look what we 
are going to have when we have this spanking new wonderful 
system, it means that the Federal Government and FCC and local 
and State governments have a responsibility for public safety 
in between doing whatever you have to do, because that becomes 
extremely important with respect to Ms. Hamlin and Mr. Ramon.
    Ms. Hamlin, I am not sure what you would suggest as interim 
measures, but I would like to hear anything in the meantime 
regarding interim measures you think might be of use to the 
groups you represent.
    Ms. Hamlin. Thank you, Madam Chair.
    We have seen a few things work. We have seen Homeland 
Security give grants in this particular area, in the D.C. area, 
that provide text messaging about local events, which has been 
pretty effective. What the problem has been, I just received an 
e-mail last night from a person in California who had signed up 
for text alerts about tsunamis because she is concerned about 
what effects on the Pacific, and she got an alert that 
basically was impossible to read. She didn't know what to do.
    She got an alert, but she didn't know what to do. So we 
need more research to figure out what do you say when you get 
an alert. Because what is happening is ad hoc, the firefighter 
on the job is now sending out text messages. So that is a 
problem.
    The other problem, I am concerned when people talk about 
knocking on doors because people with hearing loss may not 
hear. I have heard situations where emergency managers have 
gone down the street with bull horns and people have been 
inside and not known what is going on.
    So my community, like what we just heard about cell phone 
use, we have access to text messages. In fact, in Maine also, 
Maine had a program specifically for people with hearing loss 
where they gave people an option of getting a NOAA radio, a 
NOAA weather radio or getting a PDA, something that would allow 
them to speak back and forth so that they would get specific 
emergency alerts in Maine because they knew that the cell 
phones wouldn't reach all areas. So they had a program with a 
grant which gave them the NOAA radios they would need so they 
would get those emergency alerts.
    So these are some of the ways, but even though States are 
strapped for money, it is very hard to get up a system like 
this unless they get money from Homeland Security or FEMA or 
some form of money to let the States know, some way for the 
States to get this up and running.
    Ms. Norton. One of the things we will be questioning FEMA 
about are the existing CERT teams, because apparently what we 
have is a system that has some technology in place, some way to 
contact people, the average person and a person who speaks 
English, but incorporating people with disabilities or--and 
here is where you really get interesting--people who speak a 
different language. Now, the fastest growing group of such 
people of course is Spanish-speaking. But think about what your 
country is becoming; a patchwork of people who speak all kinds 
of languages. Hey, look, that is what you are, that is what you 
are going to have to do, or else the injuries and the deaths 
will be disproportionate; we know exactly where they will be.
    I don't understand, Mr. Coletta, where you said the media 
outlets were focused only on coastal Collier County, where the 
bulk of the population lives, neighboring Lee and Charlotte 
Counties, with real information being provided to the residents 
of Immokalee, despite the best efforts of the emergency 
management office. I mean, doesn't the media outlet go to those 
places? What does it mean when it says little outreach? Doesn't 
it reach those places? What is the problem?
    Mr. Coletta. Well, the problem is very simple. Once again, 
it has to do with the division of language. Yes, Immokalee 
receives television, they have several stations, they have 
radios, but just about everything comes across in English. They 
weren't picking up on it. And that is why there were so many 
people that were not aware of what was happening. It is that 
simple. I mean, there have been some things that have taken 
place since then--of course we are talking 4 years ago, and we 
are trying to improve what we can as far as our communication 
infrastructure goes--but there is still a big gap in there, and 
it has to deal with the people that do not speak English. They 
just cannot get the message at this point in time.
    Ms. Norton. Is that people who don't speak English, or 
people like the people where Mr. Ramon is who are located where 
they may be away from radio and TV? I mean, the State is full 
of Spanish-speaking people. How about those people?
    Mr. Coletta. Well, we are talking different elements here. 
My element is very similar to what Mr. Ramon referred to. We 
are talking about laborers who are coming into this country 
that only speak Spanish, that are concentrating on one thing; 
that is, trying to make enough money to be able to survive and 
to maybe send a little bit back home again. They are a very 
narrow scope of people.
    Generally, Spanish-speaking people that are permanent 
residents within the community have picked up enough English, 
they understand what is taking place, there doesn't seem to be 
that kind of a problem.
    Ms. Norton. Are Spanish-speaking stations tuned into this 
system the way other stations are, giving the emergency alerts 
and the rest?
    Mr. Coletta. For the most part, yes, but in this one case 
in Immokalee, and that is what prompted me to go there to try 
to----
    Ms. Norton. What was up with them?
    Mr. Coletta. Well, what happened was the station was 
abandoned.
    Ms. Norton. I am talking about the station--you said the 
stations that mostly were tuned to the----
    Mr. Coletta. Well, I am talking about the regular 
commercial television stations, radio stations, English-
speaking stations.
    Ms. Norton. I see. Well, what about English-speaking 
stations located in areas where there may be a significant 
Spanish-speaking population and a significant English-speaking 
population, what are they supposed to do with the EAS alert?
    Mr. Coletta. I couldn't answer that, why they don't put it 
across in Spanish other than the fact that they probably don't 
see a need for it. I don't know what the requirement is.
    Ms. Norton. Should that be mandated? As long as you are 
doing it for 30 seconds?
    Mr. Coletta. It would be even better if there was some way 
to be able to separate the bandwidth where you could have a 
person just dial up a different language, any language, it 
doesn't have to be Spanish, it could being Vietnamese, and they 
would be able to hear that translation take place. Now, I just 
read a little bit of some of the literature I received coming 
here ahead of time that something like this is in the works. I 
don't know where it is. So I am just making that a suggestion 
of where to go.
    If you try to divide an established television station or 
radio station into English and Spanish in a time of emergency, 
I have no idea what the outcome would be.
    Ms. Norton. Well, somebody has to figure that out because 
it is not enough to have it on Spanish-speaking stations and 
English-speaking stations. Hispanics learn English just like 
that. It is amazing how bilingual they are, especially since 
the rest of us are so dumb we can hardly speak English. So they 
are going to be quite able, millions of them.
    Ms. Norton. But when you have got that kind of mixture, 
Federal guidance, it seems to me, itis going to be necessary 
for people to know what to do, since they do not want to do any 
of it.
    Mr. Muth. Ma'am, if I can, even in the State of Maryland, 
in Baltimore County--the county I came from--we have a very 
strong Russian community, and so they will never end. I mean 
the communities are there.
    Ms. Norton. Yes, but you know, we may get to the point 
where there has to be dialogue. You know, if you come from New 
York City, heaven help you. We are not here to facilitate down 
to the lowest common denominator, but if there is information 
out here saying you can find out what that says and if you are 
dealing with the largest groups, just like, you know, you have 
Christmas--you know, if you are in New York, you may have Yom 
Kippur. We do not have it here, so you are going to have to 
make those decisions, but it looks like those decisions are not 
even being made.
    Mr. Muth. They are not made, and you mentioned this earlier 
in the first panel: What you have happening is every State is 
doing their own thing.
    Ms. Norton. With no Federal guidance, what else is there?
    Mr. Muth. Exactly. I concur.
    Ms. Norton. Mr. Ramon, you had wanted to say something 
further, please.
    Mr. Ramon. Yes. Our organization has not been invited to 
this training, but when I used to work with the clinic, a 
clinic called Vista in northern San Diego, the Red Cross would 
come and offer us training and ask us to participate in help 
fairs and so forth, but since the funding ran out, I was laid 
off, and now I work as a volunteer with my organization.
    Then what I also know is that, in Fresno, there is a radio 
station that hooks up with a number of radio stations all the 
way down to Oaxaca, in Mexico. They have a program on Sundays, 
and they call it the Mixteco Hour. During that hour, people can 
send their greetings, and information is shared as to what is 
happening all over that area, all the way up to Oregon, from 
Fresno to Oregon as well; but the problem is this: only 1 hour 
on Sunday and it is only on the Pacific Coast.
    Ms. Norton. But it does show you that there is the 
capability even now before we get the technology where it 
should be.
    Mr. Ramon. Yes, we can, not only with Mixteco.
    In Oregon, I understand that they are working with the 
Mixteco languages, and they are getting it out also in Trique, 
in Amuzgo, in Zapoteco. There are 22 languages we have in 
Oaxaca, and in Oregon they are able to put out this information 
through this radio station. I saw this in a report. I think it 
was on CNN.
    Ms. Norton. FEMA has a lot to learn, it seems to me, from 
what people have done with their own leadership.
    I have to ask Mr. Ramon another question.
    Perhaps Mr. Ramon or the elected officials in the area 
received an explanation. It was troubling to hear you say that 
in the 2007 wildfires that the fire chief was in the area, but 
did not communicate with farm workers.
    I would like you to elaborate. Perhaps there was some 
oversight because of something you did not know. Why did that 
occur?
    Mr. Ramon. When we got there, we asked the people if 
somebody had told them to leave the area because it was an 
evacuation area, and they said, No, no one has spoken to us. We 
have only seen this gentleman going back and forth, but he has 
not spoken to us. We asked the fire chief if he had given out 
any information, and he said, Well, they can leave voluntarily 
if they want to, but it is up to them.
    Ms. Norton. Did he say it in Spanish or English?
    Mr. Ramon. In English. Someone else was translating for me.
    Ms. Norton. Well, here is an area where you would expect 
especially to warn people away because of their greater 
vulnerability outdoors and in trailers and the like, but he was 
an English speaker, and you say that you saw him going back and 
forth. It may speak to the necessity to arm, even if with 
translators, people who are major figures, such as the fire 
chief, with somebody who can communicate to people who need it. 
Of course they can go or not go if they want to. That goes 
without saying. Except, if it is an order of evacuation, you 
are not supposed to have any recourse, and of course you need 
to know how to get out. So, even having somebody on the 
ground--and we have been talking about, I guess it was, what 
Mr. Coletta had to do--it may not be enough if that person 
cannot speak the language either and, therefore, will take care 
of the people who speak his language, first and foremost, and 
then will go on his merry way.
    I only have another question or so. I have to ask about 
this, about the use of digital. Now that digital came on, it 
looks as if there is a whole new way, Mr. Axtell, for Maine, 
Vermont and, for that matter, for greater redundancy elsewhere, 
you know, with the digital bandwidth, not as much congestion.
    Are we seeing PBS jump onto this and Maine have now a whole 
new way to be alerted and Vermont?
    Mr. Axtell. Well, there are a lot of stations that are very 
interested in pursuing this, but it is a financial issue.
    Ms. Norton. Financially, how much? You had something that 
you said was only $300 or something.
    Mr. Axtell. That is a solution. That is a device, and that 
is because we did a small run on a custom activity. I think, if 
you mass produced it, you would get it for a much lower price.
    We have a whole variety of PBS stations that are interested 
in working on this. Kentucky sends out wireless messages about 
tornadoes and other weather information to highway rest stops 
and other kinds of innovative activities. Wisconsin has sent 
some material to hospitals and to ambulances. Alabama is 
proposing to have a system that would replicate the system and 
enhance it, that which we have in Nevada.
    So you have lots of people who want to move forward, but 
the trick is you have got to have your emergency management 
folks who have critical databases say that you will become a 
redundant provider of data or they have to help define what the 
services are that they need, and as you pointed out, urban 
versus rural services will be very different.
    Ms. Norton. Well, if FEMA had done what it was supposed to 
do, it would have beat digital. Now digital is here, providing 
whole new, very important technology to feed into the system.
    I want to thank all of you for this testimony. Of course we 
heard from the responsible officials, but I want to say, for 
the record, that your testimony has been equally important to 
this Subcommittee, and thank you very much for your testimony.
    The hearing is adjourned.
    [Whereupon, at 5:11 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
</pre></body></html>
